<html>
<title> - GRAZING POLICY CHANGES PROPOSED BY THE U.S. FOREST SERVICE</title>
<body><pre>[Senate Hearing 109-267]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-267
 
       GRAZING POLICY CHANGES PROPOSED BY THE U.S. FOREST SERVICE

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     AUGUST 30, 2005--BISMARCK, ND

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
25-116                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

             Subcommittee on Interior and Related Agencies

                     CONRAD BURNS, Montana Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   BARBARA A. MIKULSKI, Maryland
WAYNE ALLARD, Colorado               HERB KOHL, Wisconsin
                           Professional Staff
                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                              Ryan Thomas
                              Rebecca Benn
                       Peter Kiefhaber (Minority)
                       Rachael Taylor (Minority)

                         Administrative Support

                             Michele Gordon


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Byron L. Dorgan.....................     1
Opening statement of Representative Earl Pomeroy.................     4
    Prepared statement...........................................     6
Statement of Gail Kimbell, Regional Forester, Northern Region, 
  U.S. Forest Service, Department of AgriculturE.................    75
    Prepared statement...........................................    77
Janette Kaiser, Director, Rangelands, U.S. Forest Service, 
  Department of Agriculture......................................    75
Dave Pieper, Grasslands Supervisor, Dakota Prairie Grasslands, 
  U.S. Forest Service, Department of Agriculture.................    75
Statement of Randall Mosser, president, North Dakota Grazing 
  Association....................................................   105
    Prepared statement...........................................   107
Statement of Keith Winter, president, McKenzie County Grazing 
  Associa- 
  tion...........................................................   109
Statement of Todd Anderson, president, Sheyenne Valley Grazing 
  Association....................................................   258
    Prepared statement...........................................   258
Statement of Joe Milton, Jr., rancher............................   259
    Prepared statement...........................................   259
Statement of Tony Huseth, rancher................................   260
    Prepared statement...........................................   262


       GRAZING POLICY CHANGES PROPOSED BY THE U.S. FOREST SERVICE

                              ----------                              


                        TUESDAY, AUGUST 30, 2005

                           U.S. Senate,    
                            Subcommittee on
                     Interior and Related Agencies,
                               Committee on Appropriations,
                                                      Bismarck, ND.
    The subcommittee met at 11 a.m., at the Bismarck State 
College Student Union, 1500 Edwards Avenue, Missouri Room, 
Bismarck, North Dakota, Senator Byron L. Dorgan presiding.
    Present: Senator Dorgan.
    Also present: Representative Earl Pomeroy.


              OPENING STATEMENT OF SENATOR BYRON L. DORGAN


    Senator Dorgan. Good morning to all of you. I'm Byron 
Dorgan. This is a hearing of the Interior Appropriations 
Subcommittee, U.S. Senate. Senator Conrad Burns from Montana is 
the chairman of that subcommittee, and I am the ranking 
Democrat on the subcommittee.
    With the concurrence of Senator Burns from Montana, we are 
holding the hearing today in Bismarck. He was hoping to be able 
to be here. His schedule would not allow him to fly over. He's 
in Montana this morning for something previously scheduled, but 
he wanted me to proceed to hold the hearing.
    His staff director on that subcommittee, Bruce Evans, is 
with us today, and Bruce is right over here. We have my staff, 
Peter Kiefhaber and Rachael Taylor, right over on this side, 
and they're welcome to pull up chairs as we move along if you 
wish.
    We will formally convene the hearing. Congressman Pomeroy 
is in North Dakota as well. It's the August break from the 
Congress. He indicated he was available here in Bismarck, and I 
invited him to sit in. And I'm pleased that Congressman Pomeroy 
sits in.
    As you know, the House of Representatives has 435 members, 
so they operate largely on the 1 minute rule. Every opportunity 
they get to participate in a Senate event when we have 
unlimited debate, House Members will be asked for that 
opportunity. So I'm really pleased that my colleague, 
Congressman Pomeroy, is here.
    This is an issue that is very important. I know we have 
many ranchers here in the crowd, we have representatives of the 
Forest Service, and we're going to hear about a series of 
issues. Let me begin with an opening statement and describe why 
we're here.
    First of all, I'm here because I want some straight answers 
from the Forest Service. I was surprised, as I would suspect 
everybody in this room who ranches was surprised, by the rules 
or regulations put out in the handbook recently.
    When they were put out, we were told that they were already 
in effect and they would begin to work with these new rules and 
regulations and deal with leasing of base property and its 
attachment to the issue of grazing rights and a series of other 
things. Shared cattle, the carrying capacity, measuring and 
carrying capacity of grazing lands. A whole series of things.
    I was surprised by it because no one had told me that--at 
least I wasn't aware that we were nearing a point where someone 
was going to say that this is going to change after many, many, 
many decades, and yet, it was put out and announced it was in 
effect. That's unfair. It's wrong. I believe the policy itself 
is wrong, but the procedure by which it was done was just flat 
out wrong.
    I wrote to the Forest Service immediately when I found out 
and asked for a suspension of these new policies. The Forest 
Service, I'm pleased to say, did, in fact, suspend the policies 
about 6 or 8 days after we sent the letter. So the result is 
we're now holding a hearing of the Interior Appropriations 
subcommittee.
    We, in fact, fund the Forest Service. That's our connection 
here to the Forest Service. This subcommittee funds the Forest 
Service, and so we're really pleased that all of you are here.
    I'm going to make a few comments about this, and then I'm 
going to have Congressman Pomeroy make a couple comments. We 
are then going to hear from the Forest Service, ask questions 
of the Forest Service, and then we're going to hear from a 
panel of ranchers--the conclusion of which I hope will give all 
of us a better understanding of where we are, what's happening, 
and what we can do about it.
    Let me just say, first of all, that one would not normally 
think that the Forest Service would have anything to do with 
grasslands, and normally they shouldn't. They're about forests.
    In case anybody has noticed lately, forests are different 
than grasslands, very different. So my own feeling is the 
grasslands ought to be managed by someone else. NCRS or someone 
in USDA, not the Forest Service. Nonetheless, we are where we 
are, and until that changes, the Forest Service manages the 
grasslands.
    There are people in the Forest Service who I believe want a 
one-rule-fits-all template that you put over grasslands just as 
they do the forests. Doesn't work. Can't work in my judgment. 
So that's a serious problem.
    We work long and hard. Congressman Pomeroy was a part of 
it, and Senator Conrad and myself, we worked long and hard to 
say to the Forest Service, you know, if you had a forest out 
here you were managing, you'd have a forest supervisor. You'd 
have a forest supervisor. So because you're supervising 
grasslands, we want a grassland supervisor out here.
    That's where Mr. Pieper came in, but that was not an easy 
fight. It took a long while to get that. The reason we fought 
for that is because we believed very strongly, Senator Conrad, 
Congressman Pomeroy, and I believed very strongly, as did the 
ranchers, that grasslands are not forests. So you can't just 
take a set of rules and deal with forest and say, okay, we'll 
just impose them on the grasslands. It's a separate entity. It 
needs to be treated separately.
    Now, we've got a lot of people who are here to talk today. 
Teddy Roosevelt once said, ``Ranchers don't talk very much. 
They do most of their work in the saddle.''
    That's true, but ranchers are plenty interested in talking 
at an opportunity like this. I've heard from them. Many of you 
have heard from them as well, and so their discussion today is 
going to be very important.
    I don't claim to be a rancher. I know something about this 
life just a bit. We raised some horses and had a few cattle, 
but I don't claim to understand the full value of all of the 
nuances here.
    But I want to say this: That Rodney Nelson wrote a piece 
once that I just jotted down for this morning. You know, 
ranching is not just a $600 million business in North Dakota--
$600 million a year business--it's a big part of our State. But 
ranching is also about values. Farming and ranching is about 
values. And Rodney Nelson of just west of here wrote something 
about it.
    He said, ``What's it worth for a kid to know how to fix a 
machine? How to hang a door? How to weld a seam? What's it 
worth for a kid to know how to work livestock, how to teach a 
calf to drink from a bucket, how to plant a crop? What's it 
worth for a kid to know how to build a lean-to, how to drive a 
tractor, how to butcher a steer, how to grease a combine, how 
to milk a cow?''
    He said, ``We sent millions of people that knew all of this 
from America's farms and ranches in the Second World War to go 
around the world, and they could fix anything any time. What's 
it worth? It's about values.''
    Now, let me just describe quickly what's happening here. 
Some years ago, unlike the forests, which have never been in 
most cases in private hands, unlike the forests which have 
always been in public hands in this country, some years ago 
much of our grasslands was taken into public hands from private 
people during the Great Depression.
    Accompanied by the Bankhead-Jones Act there was a certain 
understanding about how that was going to work, and how it was 
going to work is it was going to go from private hands to 
public ownership available for multiple use to be sure, but 
also a part of a continuing part of our agricultural economy, 
especially with respect to grazing, in order to continue 
helping the economy of this State, and helping farmers and 
ranchers. That was the foundation for it. It's important to 
understand that.
    Now, what has happened is over a period of a long time, the 
Forest Service has been managing this and we've had our fights. 
But what has happened in the last few months in my judgment is 
a real setback because--and I'm going to ask Ms. Kimbell, and 
Mr. Pieper, and Ms. Kaiser about this.
    But this is supposed to be a partnership, and you don't 
have a partnership by announcing: ``Here are the new rules by 
the way. We didn't really talk to you about them. We didn't 
meet with you about them. We didn't consult with you about 
them, but here are the rules.''
    I want to know who in Washington triggers that or who in 
the regional office triggers that to say, yeah, this is fine. 
It's not fine. Not fine with me, and I don't believe it's fine 
with the U.S. Congress. I'm going to do everything I can to try 
to change this and try to make it right.
    You know, the fact is this issue of leasing base property. 
We've been doing that for 70 years. Yes, it's different in 
North Dakota, but so what? That was the rule. That's the way it 
started. That's the way it was suppose to have been. Now all 
the sudden somebody wants to change it.
    What will it mean? Well, it will mean that young ranchers 
won't have a start. It just means we won't have a future in 
ranching. Aside from the fact that it's just unfair.
    Now, I'm just going to mention two other things. I wish 
that Margaret McKutchen could be here today. I read her letter. 
I've got a letter from Martha. I also read a piece that Laura 
Donovan wrote in the Bismarck Tribune about Martha.
    My guess is her testimony could be real, real short. Just a 
couple words, just based on what I read in the Bismarck 
Tribune, but we would all understand the point. Martha is 85 
years old, a widow. She understands how this leasing decision 
would affect her. We can't let that happen.
    Let me read to you a letter I got. I read it this morning, 
from a 12-year-old. Landon Lector. A 12-year-old boy, and I 
don't know Landon, but here's what he says:
    ``My name is Landon Lector. I'm 12 years old. My grandpa 
and I spend time on his ranch in the Badlands. He and I have 
visited about the changes being made. I don't get it. He gets 
very upset when he explains it to me.
    ``Do all of these things really need to happen to my 
grandpa and I? I want a ranch someday. Will my grandpa also be 
able to help me? Grandpa always says `God will look out for 
us.' ''
    Well, the question for Landon, I suppose, is: Will the 
Forest Service look out for us?
    So the purpose of this hearing is to get some answers and 
some straight talk. And frankly, I don't like what's happened. 
I'm upset by what's happened. This should not happen. This is a 
Federal Agency. It's a big old bureaucracy. It has a 
responsibility to us.
    My preference would be that the grasslands not be managed 
by the Forest Service in the future. Until we can effect that 
change, if we can effect that change, we're stuck with what we 
have. That is the Forest Service. But we have to expect the 
Forest Service is going to treat this as a partnership, and it 
has not.
    This surprise with respect to leasing and other issues is a 
devastating surprise to a lot of ranches. It is unfair. It will 
hurt this State. It will hurt families. It will hurt our 
economy, and we can't let this happen.
    So let me call on my colleague Congressman Pomeroy for a 
few comments and then we will hear from the Forest Service.


                 OPENING STATEMENT OF REP. EARL POMEROY


    Mr. Pomeroy. Senator Dorgan, for purposes of today's 
hearing I'll say Mr. Chairman. Thank you for convening this 
hearing of the Appropriations subcommittee.
    Thank you also for the work you have done in signaling our 
sharp disagreement with the Forest Service relative to today's 
interim directives.
    In my entire experience of relations with the Forest 
Service as one Agency of the Federal Government, an entity with 
lots of agencies, I have never seen an approach used on such 
substantive matters as was attempted by the Forest Service with 
these interim directives.
    It raises many deeply disturbing questions that need 
answers, and I hope we'll get some today. I expect we'll be 
getting answers for some time.
    The use of an interim directive to essentially change 
effective law relative to our ranchers through the Grazing 
Associations as lease holders of the Federal land is, I 
believe, a dangerous departure from the protections Americans 
have under the Administrative Practices Act.
    That law requires an Agency that's going to take your 
rights away to at least make advance publication to hold formal 
hearings, gathering public input, and to develop a record of 
decision making as rationale for the policies advanced.
    Now, maybe that was just a little too cumbersome for the 
Forest Service in this instance because what they did with 
their interim directives published on July 19 was totally 
change in very important ways, this contractual relationship 
between our ranchers and the Federal Government through the 
Forest Service. And they came out to the associations and said, 
``Here it is. This is done. This is the new requirement. Take 
it or leave it.''
    That kind of heavy hand arbitrary approach of the Federal 
Government threatens our ranchers. But in a broader sense, it 
threatens every American. We have rights and we won't stand for 
that type of treatment by those agencies.
    We also have a lot of questions we need answered relative 
to the substance underlying the changes. The Forest Service has 
said this is the first time they have tried to update the 
handbook in 20 years, been a lot of case law and other issues 
since that time, needs updating from time to time.
    Well, we need a clear distinction between what changes are 
driven because of what has unfolded as a matter of case law or 
involving Federal law in Congress, and what is essentially the 
whim and wishes within certain officials in the U.S. Forest 
Service?
    I am especially concerned about the prohibition advance on 
lease transfer and the seemingly arbitrary line drawn of 
maximum of 7 years or when the lease expires, whichever is 
earlier. And because lease terms are often 3 years, it is often 
earlier.
    I want some explanation in terms of what analysis the 
Forest Service did that gave you a notion that a new operator 
can come in, generate the kind of capital to buy the cattle, 
buy the base acreage for purposes of obtaining this lease 
transfer.
    Whoever thought this one up in the Forest Service seems to 
have a fundamental ignorance of economics of ranching or for 
that matter finance 101.
    But these are the kinds of things an Agency, that's 
operating within the Administrative Practices Act, can actually 
hear and internalize and learn from before they run out; new 
requirements on behalf of the Federal Government.
    The last 2 weeks I've met with the McKenzie Grazing 
Association in Watford City. I met with the Medora Grazing 
Association in Dickinson yesterday, and I believe it is a fair 
statement that I have now as a Member of Congress spent more 
time studying the implications of your new directives than the 
Forest Service has itself.
    Senator Dorgan, your hearing is urgently needed, and I hope 
that we hear in the testimony from the Agency a very serious 
reconsideration of this whole ill-advised notion.
    Final point I want to make, and I'll introduce it in 
evidence as the hearing unfolds. I have correspondence here. We 
were copied as members of the Congressional Delegation.
    It was sent to the Forest Service, to Sheila McNee, a range 
program leader, whom I understand was a principal employee of 
the Forest Service studying all this, dated January 22, 2004. 
The signatures are the Medora Grazing Association, Little 
Missouri Grazing Association, Grand River Grazing Association, 
Sheyenne Valley Grazing Association, McKenzie County Grazing 
Association, and Horse Creek Grazing Association.
    It is the definitive statement on the ideas floating about, 
the ideas that ultimately became the interim directives.
    This was prepared substantively and in considerable effort 
and sent to the Forest Service. The receipt of which was not 
even acknowledged. There was ultimately no feedback. Nothing 
relative to this at all until attendance at the Grazing 
Association meetings by Forest Service personnel with the 
interim directives about the new requirements.


                           PREPARED STATEMENT


    Now, that is not how the Federal Government should operate. 
It's not how the Forest Service should operate, and I never 
want to see an Agency operate like this again. And by God, if 
we have to pass laws to make sure they don't, we'll pass them 
because the American people deserve more protection than that 
from their own Government.
    Thank you again, Mr. Chairman.
    [The statement follows:]

                Prepared Statement of Rep. Earl Pomeroy

    Senator Dorgan, thank you for calling this hearing today and for 
allowing me to join you as we investigate changes to management of our 
National Grasslands proposed by the U.S. Forest Service. I believe this 
hearing offers us the opportunity to delve more into the process by 
which these changes were developed and arrive at critical answers to 
questions that have arisen about both the process used by the Forest 
Service and the substance of the changes proposed or already 
implemented.
    Yesterday and last week, I visited with some of the ranchers here 
today to learn their concerns about the changes. Unfortunately, I had 
the feeling that in just these two short visits, I had spent more time 
with them discussing these changes than the Forest Service had in their 
development of the proposal. This is simply not right and is not how 
the Federal Government should work.
    Several issues concern me about the Forest Service's actions in 
this case.
    First, the agency appears to be using a method to change policy 
that purposefully minimizes public participation. Interim Directives go 
into force immediately upon publication in the Federal Register, no 
public comment required. This is the case despite the Office of 
Management and Budget finding that the change was ``substantive.'' The 
Forest Service only backed off from putting much of the policy into 
place immediately upon an outcry from public officials and ranchers.
    Second, the changes being proposed to these handbooks are not 
simply instructions to personnel about proper forms to use for managing 
the grasslands or about procedural matters. They directly and 
substantively affect the livelihood of ranchers in the area. As a 
result, no change should be implemented without considerable and 
thorough input from affected parties, including the ranchers, grazing 
associations, and the public at large.
    Third, the changes being proposed are not justified by the Forest 
Service in the Federal Register and appear to be arbitrary decisions 
made without the informed input of experts on the ground. The use of a 
seven-year limit on leasing of property to satisfy base ownership 
qualification requirements is a perfect example. Why seven years? The 
ranchers I spoke with--some who own land they ranch, some who lease--
insist that this period of time is simply too short to build up the 
equity necessary to purchase of land, cattle, and equipment.
    To sum up, I believe the Forest Service should see this hearing as 
an opportunity to evaluate its procedures and determine ways to better 
enhance its relationship with ranchers and grazing associations on the 
ground. I hope the agency uses the hearing today for this purpose and 
that we receive the answers we need to the many questions that relate 
to the changes proposed and implemented in the Forest Service handbook.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Dorgan. Congressman Pomeroy, thank you very much. 
Let me also point out that Senator Conrad has not been able to 
be with us this morning, but he has been a part of our 
communications to the Forest Service and has met with the 
Grazing Associations as well. And I believe it would be fair to 
say that he expresses the same concerns and interests that 
Congressman Pomeroy and I express today.
    We're joined as a first set of witnesses, and I believe the 
only one who will make a presentation is Gail Kimbell, the 
Regional Forester for the Northern Region, which is in Montana, 
I believe.
    She is joined by Janette Kaiser, Director of Rangeland 
Management, I believe from the Washington office, and Dave 
Pieper, the Grassland Supervisor from the Dakota Prairie 
Grasslands.
    Ms. Kimbell, you have obviously heard an earful from us, 
and we appreciate your traveling to Bismarck today. As I 
indicated, we really want some straight answers from the Forest 
Service today.
    Let me recognize you for any statement you wish to make. If 
you would pull the microphone close to you, I would appreciate 
it very much.

STATEMENT OF GAIL KIMBELL, REGIONAL FORESTER, NORTHERN 
            REGION, U.S. FOREST SERVICE, DEPARTMENT OF 
            AGRICULTURE

ACCOMPANIED BY:
        JANETTE KAISER, DIRECTOR, RANGELANDS, U.S. FOREST SERVICE, 
            DEPARTMENT OF AGRICULTURE
        DAVE PIEPER, GRASSLANDS SUPERVISOR, DAKOTA PRAIRIE GRASSLANDS, 
            U.S. FOREST SERVICE, DEPARTMENT OF AGRICULTURE
    Ms. Kimbell. Mr. Chairman and Representative Pomeroy, thank 
you for the opportunity to appear before you today. Yes, I am 
the Regional Forester for the Northern Region of the U.S. 
Forest Service. That includes national forest system lands in 
Northern Idaho, across the State of Montana and across the 
State of North Dakota with pieces of South Dakota and a tiny 
little piece of the State of Washington.
    Let me quickly summarize the issue that brings us together 
today. On July 19, the Forest Service published some long 
anticipated revisions to 16 chapters of our manuals and 
handbooks regarding rangeland management.
    One of those chapters contained a sentence that was most 
unfortunate in both its exact wording and the energy it created 
in its wake.
    It is not the intent of the U.S. Forest Service to 
eliminate leasing of base property or of livestock as options 
in managing the Dakota Prairie Grasslands. We have taken to 
withdraw the offensive language, and today have posted two 
chapters--those two chapters, Chapters 10 and 20--on our Agency 
website with the corrected language, and we have submitted them 
to the Federal Register for publishing, again without that 
offensive language.
    The Chief of the Forest Service has been very vocal about 
his concerns for open----
    Senator Dorgan. Excuse me. Can you--I just want to have 
everyone understand what you're saying here. When you say, 
``that offending language,'' you started by saying there was 
one sentence.
    Ms. Kimbell. One sentence that appeared twice.
    Senator Dorgan. So that's the offending language----
    Ms. Kimbell. The offensive language----
    Senator Dorgan [continuing]. That you're speaking to now?
    Ms. Kimbell. Regarding leasing of base property.
    Senator Dorgan. I just want everyone to understand what 
you're responding.
    Ms. Kimbell. The Chief of the Forest Service has been very 
vocal, very consistent in talking about the need for 
consideration of open space and working landscapes. This has 
been across forested landscapes, and rangeland landscapes.
    The National Forest Systems do include a great deal of 
forest lands. They also include a great deal of rangelands, 
aside from the National Grasslands.
    Keeping ranchers on the land is a critical part of that 
whole picture as the Chief envisions it and as we all envision 
the management of public lands.
    We will continue to work with the people of North Dakota 
and the people of South Dakota to finalize the language 
regarding leasing of base property and leasing of livestock in 
the finalization of the language of those chapters that 
appeared today on the Forest Service website and will appear in 
the Federal Register here very shortly.
    Dave Pieper and his staff have worked concertedly over the 
last several years with the grazing associations and with the 
individual permittees, and I would expect that as we work 
through this and some other issues, we will continue to work in 
that same collaborative way.
    We do have side boards in the management of National 
Grasslands. They're managed as part of the national forest 
system permanently held by the Department of Agriculture for 
administration under the purposes of Title 3 of the Bankhead-
Jones Farm Tenant Act.
    However, it is important to note that Congress has not 
exempted the National Grasslands from other legislation such as 
the National Environmental Policy Act, the Endangered Species 
Act, the Forest and Rangeland Renewable Resources Planning Act 
of 1974 and the National Forest Planning Act of 1976.
    The Dakota Prairie Grasslands, created as a separate 
National Forest System unit in 1998, administers the day-to-day 
activities of the National Grasslands in North and two National 
Grasslands in South Dakota.
    Of the roughly 100 permanent employees, there are clearly 
25 that are permanently involved or almost totally involved 
with the rangeland management programs, and of those, a great 
many are native North Dakotans and were educated here in North 
Dakota. Others come from other great universities around the 
United States.
    The Forest Service recognizes and values the fact that its 
livestock grazing permittees contribute to the management of 
National Forest and Grasslands. We believe the proposed 
amendments to the Forest Service Rangeland Manual and Handbook 
meet both management and permittee needs.

                           PREPARED STATEMENT

    However, it is our intent to make every effort to engage 
the public by providing information on the proposed directives 
and seeking comments from ranchers, Grazing Associations, State 
and local officials, tribal governments, and other 
stakeholders.
    Mr. Chairman, we would be happy to answer any questions you 
might have.
    [The statement follows:]

                   Prepared Statement of Gail Kimbell

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to appear before you today to discuss the proposed 
amendments to the U.S. Forest Service Directives for Rangeland 
Management. I have with me today Janette Kaiser, National Director of 
Rangeland Management and Dave Pieper, the Grassland Supervisor, Dakota 
Prairie National Grasslands.

                               BACKGROUND

    The last major update to the Forest Service Rangeland Manual and 
Handbook occurred in 1985. Since 1985 new legislation (Rescissions Act 
of 1995, Omnibus Appropriations Act of 2003 and Consolidated 
Appropriations Act of 2005), case law (Anchustegui v. USDA), changing 
needs on the ground, the need for consistency between all Forest 
Service Regions, and the need to address local practices and customs 
have shaped the need to update and clarify existing policy. Over the 
years, the Forest Service has listened to stakeholders, including 
livestock industry representatives, across the country regarding policy 
issues and we believe the proposed revisions to the directives address 
many of their expressed concerns. Our goal is to assure our policies 
are up-to-date and meet both agency and stakeholder needs.
    The Forest Service released amendments to its Rangeland Management 
Manual (FSM 2200) and to its Grazing Permit Administration Handbook 
(FSH 2209.13) on July 19, 2005. Concurrently, the agency issued Interim 
Directives to FSH 2209.13 for Chapters 10 and 20 which contained both 
clarifications to existing policy and some new direction which became 
immediately effective for up to 18 months. In response to public 
concerns about the implementation of the new directions, this part of 
the Interim Directives was withdrawn. On August 19, 2005, the Forest 
Service released for public comment those parts of Chapters 10 and 20 
in FSH 2209.13 that contained new direction as proposed directives. 
Those portions of Chapters 10 and 20 of FSH 2209.13 that were not new 
direction were reissued as Interim Directives on August 16, 2005. The 
regulations governing rangeland management at 36 CFR 222 are not being 
changed. All clarifications and proposed new direction deal only with 
agency policy.
    FSH 2209.13, Chapters 10 and 20 address the issuance and 
administration of term grazing permits and grazing agreements 
respectively. Chapter 10 describes the procedures to issue, modify, 
suspend and cancel term grazing permits. A term grazing permit may be 
obtained through prior permit use, acquisition of base property and/or 
permitted livestock, or grant authority. Chapter 20 describes 
procedures specifically for grazing agreements. A grazing agreement is 
issued to grazing associations similar to how a term grazing permit is 
issued to an individual.
    Sections 24.11 and 24.12 of FSH 2209.13 deal with base property 
requirements and share livestock provisions which are applicable to 
national grasslands. It is the intention of the Forest Service to 
retain share livestock and lease base property options to allow 
permittees to qualify and to develop provisions to improve their 
effectiveness on the ground. These practices provide a valuable tool to 
keep ranchers on the land and encourage ranch ownership. Keeping 
ranchers on the land is an important objective consistent through all 
the agency's grazing policies.
    To that end, the National Grasslands are managed as part of the 
National Forest System and permanently held by the Department of 
Agriculture for administration under the provisions and purposes of 
Title III of the Bankhead-Jones Farm Tenant Act (BJFTA). However, it is 
important to note that Congress has not exempted the national 
grasslands from other legislation such as the National Environmental 
Policy Act (NEPA), the Endangered Species Act (ESA), the Forest and 
Rangeland Renewable Resources Planning Act of 1974 (RPA) and the 
National Forest Management Act (NFMA). The RPA specifically includes 
the National Grasslands and land utilization projects administered 
under Title III of the BJFTA as part of the National Forest System.
    The Dakota Prairie Grasslands, created as a separate National 
Forest System unit in 1998, administers the day-to-day activities of 
the National Grasslands in North Dakota and northwestern South Dakota. 
Of the roughly 100 permanent employees assigned to the unit to meet its 
mandated multiple use mission, there are over 25 natural resource 
management specialists and technicians administering the range program. 
Collectively, they have 200 plus years of grassland management 
experience. Of these employees, 18 have been educated in natural 
resource management programs at in-state institutions of higher 
learning, including North Dakota State University (NDSU) and Dickinson 
State University. Four previously held positions with NDSU's 
Agricultural Experiment Station.
    The notice published in the Federal Register on August 19, 2005, 
allows for a 120-day public comment period on the Interim Directives 
and the proposed new direction. All of the directives, as well as the 
proposed new direction, are available to the public at http://
www.fs.fed.us/rangelands.

                         PROPOSED NEW DIRECTION

    Eight items have been identified as proposed new direction and are 
largely contained in Chapter 10, Term Grazing Permits and Chapter 20, 
Grazing Agreements referenced at FSH 2209.13. The items are as follows:
Term Grazing Permits, FSH 2209.13, Chapter 10, Section 16.3
    This proposed provision explains the contents of a notice of non-
compliance letter and when it should be issued. This direction was the 
result of a Ninth Circuit court order which was implemented several 
years ago. It was initially implemented through a letter of direction 
to the regions and forests with the anticipation of inclusion in the 
national handbook.

Term Grazing Permits, FSH 2209.13, Chapter 10, Section 16.4
    This proposed provision would establish uniform guidelines for the 
suspension and cancellation of term grazing permits. These proposed 
guidelines are designed to provide consistency on administrative 
actions for non-compliance with the terms and conditions of the term 
grazing permit, promote compliance with the terms and conditions of the 
permit, and provide a fair approach to managing non-compliance. 
Currently, there is variation among Forest Service units in applying 
administrative actions in similar situations. These guidelines provide 
for the authorized officer to use discretion to address the varied 
conditions and circumstances that might be encountered in administering 
term grazing permits. The guidelines are a starting point for a Forest 
Service line officer to determine an appropriate course of action to 
resolve violations of a term grazing permit based on the facts and 
circumstances of the specific situation.

Term Grazing Permits, FSH 2209.13, Chapter 10, Section 17.1
    This proposed provision would expand the maximum period of nonuse 
for personal convenience from 3 to 4 years and sets timeframes for the 
use of the personal convenience nonuse. Personal convenience nonuse may 
be used for up to 3 consecutive years and for no more than 4 years 
within a 10-year period. The Forest Service also provides for nonuse 
for resource protection. Nonuse for resource protection is not counted 
against nonuse for personal convenience.

Grazing Agreements, FSH 2209.13, Chapter 20, Section 21.1
    This proposed provision would establish a consistent process to 
waive a Forest Service term grazing permit in favor of a grazing 
association-issued term grazing permit. If a holder of a Forest 
Service-issued term grazing permit wants to join a grazing association 
and convert the Forest Service-issued permit to an association-issued 
term grazing permit, this section would provide a consistent process by 
which the action can occur.

Grazing Agreements, FSH 2209.13, Chapter 20, Section 21.2
    This proposed provision would establish a consistent process to 
waive a grazing association-issued term grazing permit in favor of a 
Forest Service-issued term grazing permit. If a member of a grazing 
association wants to leave a grazing association and convert the 
grazing association-issued term grazing permit to a Forest Service 
issued term grazing permit, this section would provide a consistent 
process.
Grazing Agreements, FSH 2209.13, Chapter 20, Section 22
    This proposed provision would establish a standard form for all 
grazing agreements on both National Grasslands (Exhibit 01) and 
National Forests (Exhibit 02). Grazing agreements are a type of term 
grazing permit. As such, the language in the grazing agreement needs to 
be standardized to allow for consistent administration.

     USDA-Forest Service        Exhibit 1        FS-2200-135 (2/05)

          GRAZING AGREEMENT for Grazing Associations Operating

                         on National Grasslands

                    (Reference FSH 2209.13, Ch. 20)

                            Permittee Number

                             Permit Number

                UNITED STATES DEPARTMENT OF AGRICULTURE,

                          U.S. FOREST SERVICE

                                  AND

              ____ GRAZING ASSOCIATION OR GRAZING DISTRICT

                      GRAZING AGREEMENT # _______

    THIS GRAZING AGREEMENT IS BETWEEN THE U.S. FOREST SERVICE, AN 
AGENCY OF THE UNITED STATES DEPARTMENT OF AGRICULTURE (HEREINAFTER 
``THE FOREST SERVICE''), AND THE _____ GRAZING ASSOCIATION OR GRAZING 
DISTRICT (HEREINAFTER ``THE ASSOCIATION''), A GRAZING COOPERATIVE 
ESTABLISHED UNDER THE LAWS OF THE STATE OF ____.

    THIS AGREEMENT IS FOR THE ANNUAL PERMITTED USE OF UP TO __ ANIMAL 
UNIT MONTHS OF GRAZING ON THAT PORTION OF THE _____ NATIONAL GRASSLAND 
IN _____ COUNTY(IES) AS SET FORTH IN EXHIBITS A-F ATTACHED HERETO AND 
INCORPORATED BY REFERENCE HEREIN.

                            A. DEFINITIONS.

    1. Administrative Costs. A type of expenditure and land use 
practice that may be used to reduce the fee for grazing on national 
grasslands covered by this agreement. Administrative costs are those 
costs that would otherwise be borne by the Forest Service if it 
directly administered the grazing permits of association members, and 
may include routine administrative and clerical expenses incurred by 
the association related to activities like issuing grazing permits, 
collecting grazing fees, monitoring livestock use, enforcing permit 
terms and conditions, and keeping records. Administrative costs must be 
approved by the Forest Service authorized officer in advance and may 
include but are not limited to expenses incurred by the association for 
salaries and benefits, payroll taxes, postage, copying, depreciation, 
office space, utilities, legal and accountant fees, and directors' 
expenses related to administering the agreement.
    2. Allotment. An area of land represented on a map, which is 
designated for livestock grazing and comprises a logical grazing 
management unit. An allotment can be comprised of both NFS lands and 
non-NFS lands. Permits are issued for allotments or portions of 
allotments.
    3. Allotment Management Plan. A document that implements a decision 
through specifying the program of action designed to reach a given set 
of objectives for an allotment. It is prepared in consultation with the 
association and:
    i. Prescribes the manner in and extent to which livestock 
            operations will be conducted in order to meet the multiple-
            use, sustained yield, economic, and other needs and 
            objectives as determined for the lands involved;
    ii. Describes the location, ownership, and general specifications 
            for the rangeland improvements in place, or to be installed 
            and maintained, on the land to meet the livestock grazing 
            and other objectives of land management; and
    iii. Contains such other provisions relating to livestock grazing 
            and other objectives as may be prescribed by the authorized 
            officer, consistent with applicable law.
    3. Animal Unit (AU). One mature (1,000 pounds) cow or the 
equivalent based upon average forage consumption of 26 pounds of dry 
matter per day. Five sheep or goats are the general equivalent of one 
cow.
    4. Animal Unit Month (AUM). The amount of feed or forage required 
by an animal unit for one month.
    5. Annual Operating Provisions (AOPs). Detailed Forest Service 
approved provisions developed by the association for livestock grazing 
administration to be implemented in a given year on a given allotment. 
AOPs are based on the AMP and may address the number of livestock 
permitted to graze, season of use, responsibilities for improvement 
construction or maintenance, and pasture rotation schedules.
    6. Association Administered Lands. Lands administered by the 
association for livestock use including, but not limited to: private, 
State, other agency, and NFS lands.
    7. Association Controlled Lands. Private or State lands leased, 
owned, or controlled by the association by a member or non-member for 
administration of grazing activities and management purposes.
    8. Association-Issued Temporary Grazing Permit. A grazing permit 
issued by the association to a member or a non-member for a period not 
to exceed 1 year, and which has no priority for issuance upon 
expiration.
    9. Association-Issued Term Grazing Permit. A grazing permit issued 
by the association to a member, authorizing livestock grazing on 
certain lands covered by this agreement for a specific period not to 
exceed ten years or the expiration date of the agreement, whichever is 
shorter. The holder has priority for receipt of a new permit upon 
expiration of the previous term permit provided the holder has fully 
complied with the expiring permit's terms and conditions.
    10. Cancellation. The action taken to permanently invalidate a 
grazing permit in whole or in part.
    11. Conservation Practices. The protection, planning, land 
treatment, and improvement measures necessary for proper use of NFS 
lands managed under the provisions of the Bankhead-Jones Farm Tenant 
Act (7 USC 1011), and required of the holder of a grazing agreement or 
grazing permit.
    12. Excess Livestock. Any livestock owned or controlled by the 
holder of a grazing permit issued by the grazing association, but 
grazing on NFS lands in greater numbers, or at times or places other 
than that provided in the association-issued grazing permit, grazing 
agreement, or on the bill for collection.
    13. Forest Service Policies and Procedures. Those policies and 
procedures established by the Chief of the Forest Service (and 
supplemented by the regional forester and forest/grassland supervisor) 
in the Forest Service Directive System for use, management, and 
protection of NFS lands. With respect to rangeland management and the 
administration of livestock grazing on NFS lands, Forest Service 
policies and procedures are set forth in Forest Service Manual (FSM) 
2200, Rangeland Management and Forest Service Handbook (FSH) 2209.13, 
Grazing Permit Administration Handbook.
    14. Grazing Agreement. A type of term grazing permit. It authorizes 
eligible associations organized under State law to graze livestock on 
NFS lands and includes provisions for the associations to issue 
association-issued grazing permits to association members ad administer 
the permits in conformance with applicable law, regulation, LMP and AMP 
direction, the terms and conditions of the grazing agreement and the 
association's rules of management.
    15. Grazing Bill (Bill for Collection). The amount paid by the 
association to the forest in return for the privilege of grazing 
livestock on the national grasslands covered by the agreement. 
Determine the grazing fee by taking the grazing value and subtracting 
up to 75 percent of that value for expenses incurred by the association 
in connection with land use practices approved by the Forest Service.
    16. Grazing Fee. The annual charge per head month for grazing use 
on NFS lands. Grazing fees are also the total amount paid by the 
association to the Forest Service for the privilege of grazing 
livestock on lands covered by the grazing agreement and is the amount 
shown on the bill for collection. The grazing fee is determined by 
taking the grazing value and subtracting up to 75 percent of that value 
for expenses incurred by the association in connection with land use 
practices approved by the Forest Service.
    17. Grazing Value. The annual value of grazing use (total head 
months) against which land use practices may be applied on national 
grasslands and conservation practices on Eastern forests to determine 
the annual grazing fee.
    18. Head Month. One month's use and occupancy of the rangeland by 
one weaned or adult cow (with or without calf), bull steer, heifer, 
horse, burro, mule, bison, ewe (with or without lambs), ram, or goat.
    19. Land Management Plan (LMP). Required by the National Forest 
Management Act of 1976, is developed for each unit of the NFS, and 
provides direction for the management of the lands and resources of 
that unit. The _______ LMP, adopted in ______, establishes the kind of 
management practices that may occur and the timing and location of 
these practices.
    20. Land Use Practices (LUPs). Those Forest Service approved 
administrative costs and conservation practices undertaken by the 
association as part of its management of the livestock grazing 
activities on the national grasslands covered by the agreement. 
Satisfactory completion of Forest Service approved LUPs will result in 
a reduction in the grazing fee owed by the association to the Forest 
Service.
    21. National Forest System (NFS) Lands. Federally owned forest, 
range, and related lands and resources throughout the United States and 
its territories. NFS lands include all national forest lands reserved 
or withdrawn from the public domain of the United States, all national 
forest lands acquired through purchase, exchange, donation, or other 
means, the national grasslands and land utilization projects 
administered under Title III of the Bankhead-Jones Farm Tenant Act (7 
USC 1011), and other lands, waters, or interests therein which are 
administered by the Forest Service or are designated for administration 
through the Forest Service as a part of the system.
    22. National Grasslands. Part of the NFS that refers to those lands 
acquired and administered by the United States under Title III of the 
Bankhead Jones Farm Tenant Act (7 USC 1011), other statutes, Executive 
Order 10046 (amended by Executive Order 10175 and Executive Order 10322 
and revoked in part by Executive Order 10844) which are now permanently 
held and administered by the Forest Service.
    23. Rules of Management (ROM). The set of Forest Service approved 
policies, procedures, and practices developed by the association for 
their use in administering livestock grazing on the lands covered by 
this agreement.
    24. Suspension. Temporary withholding of an agreement or permit 
privilege, in whole or in part.
    25. Termination. Ending an agreement or permit without questioning 
whether the terms and conditions contained in the agreement or permit 
have been broken by either side.
    26. Unauthorized Livestock. Any cattle, sheep, goat, hog, bison, or 
equine not defined as a wild free-roaming horse or burro, which is not 
provided by permit (or bill for collection). Noncommercial pack and 
saddle stock used by recreationists, travelers, other forest and 
grassland visitors for occasional trips, and livestock trailed over an 
established driveway when there is no overnight stop on NFS land do not 
fall under this definition.
    27. Unauthorized Use Rate. The fee charged for excess or 
unauthorized livestock use.

                               B. PURPOSE

    The purpose of this agreement is to:
    1. Authorize the association to administer the permitted livestock 
grazing activities of its members on the lands covered by this 
agreement consistent with applicable Federal law, regulation, Forest 
Service policies and procedures, and direction in the LMP and AMPs.
    2. Extend sound practices of rangeland resource management through 
demonstration and by working with other Federal, State, local, or 
private landowners to consistently administer livestock grazing 
activities across rangelands regardless of the ownerships involved.

                   C. THE PARTIES JOINTLY AGREE THAT

    1. The principal objective of this agreement is to secure sound 
resource management on all lands covered by this agreement.
    2. They will cooperate with each other and assist individuals, 
local, State, and Federal agencies to demonstrate sound and practical 
principles of land use and resource management on the lands covered by 
this agreement.
    3. The vegetation resource will be developed to its reasonable 
sustainable potential to provide for all values and uses, which 
include, but are not limited to, livestock grazing.
    4. Livestock grazing is one of the many recognized multiple uses 
that occur on the NFS lands covered by this agreement.
    5. All of the multiple use activities occurring on the lands 
covered by this agreement must be carried out consistent with the 
applicable laws and regulations governing the occupancy and use of NFS 
lands.
    6. The Forest Service's authority to permit other uses or 
activities besides livestock grazing on the lands covered by this 
agreement is not affected by this agreement.
    7. The Forest Service is responsible for the authorization and 
administration of grazing on NFS lands in accordance with applicable 
Federal law, regulation, Forest Service policies and procedures, and 
LMP direction.
    8. Through this agreement, the association agrees to administer 
livestock grazing activities for association-issued grazing permits on 
those NFS lands shown in exhibit A and described in exhibit B. 
Administration shall be in accordance with applicable Federal law, 
regulation, Forest Service policies and procedures, and LMP direction.

                   D. FOREST SERVICE RESPONSIBILITIES

    The Forest Service will:
    1. Make available to the association the NFS lands shown in exhibit 
A and described in exhibit B and the rangeland improvements described 
in exhibit D for livestock grazing purposes.
    2. Determine permitted numbers and seasons of use for the NFS lands 
shown in exhibit A and described in exhibits B and F in accordance with 
Forest Service policies and procedures.
    3. Assist the association with the determination of permitted 
numbers and seasons of use for the association controlled lands 
described in exhibit C.
    4. Notify the association on or before the __ day of _____ of each 
year of:
    a. Required LUPs for the upcoming season of use and how those LUPs 
            will be considered in the establishment of the grazing fee.
    b. The estimated grazing fee to be paid for livestock use on the 
            NFS lands shown in exhibit A and described in exhibit B for 
            the upcoming season of use taking into account the 
            estimated costs of Forest Service approved LUPs on the NFS 
            lands described in exhibit B.
    c. Additional fees or credits accrued for the past grazing season 
            was not reflected in the estimated grazing fee paid at the 
            beginning of the season. Such unanticipated fees or credits 
            may include adjustments in actual grazing use, where 
            grazing was greater than or less than originally authorized 
            (final Forest Service fee determination).
    5. Prepare AMPs and AOPs in coordination with the association and 
the affected member(s).
    6. Review and approve the ROM developed by the association if they 
are consistent with applicable law, regulation, Forest Service policies 
and procedures, LMP direction, and the terms and conditions of this 
agreement.
    7. Perform improvement work not associated with livestock grazing 
that is related to management of other resources as deemed necessary or 
desirable on NFS lands other than those conservation practices that are 
the responsibility of the association under this agreement.
    8. Reserve the right (but not the obligation) to take appropriate 
administrative action or to prosecute any act or omission involving 
violations of Federal law, regulation, or Forest Service policies or 
procedures pertaining to livestock grazing on NFS lands including, but 
not limited to, excess and unauthorized use or noncompliance with the 
terms and conditions of this agreement or the ROM.
    9. Authorize reductions in the fee charged for grazing on national 
grasslands described in exhibit B by as much as 75 percent for Forest 
Service approved administrative costs, conservation practices, or a 
combination of the two in accordance with agency procedures set forth 
in chapters 20 and 80 of FSH 2209.13 (sec. 84).
    10. Require the association to implement conservation practices on 
association administered lands as necessary to obtain proper livestock 
use and rangeland resource management.
    11. Approve proposed conservation practices that are reasonably 
priced and will improve proper livestock use and are in accordance with 
LMP, the AMP, and resource management.
    12. Furnish the association with appropriate technical assistance 
necessary for implementation of required conservation practices and 
provide updated specifications as they become available.
    13. Comply with the Freedom of Information Act (FOIA) and other 
relevant laws and regulations when responding to requests from the 
public for information pertaining to grazing administered by the 
association on national grasslands lands covered by this agreement.
    14. Audit the association's records at least once every 5 years to 
ensure that the association is in compliance with the terms and 
conditions of this agreement and the ROM.
    15. Agree to review disputes between an association member and the 
association only after the affected parties have made a good faith 
effort to resolve the dispute between them.
    16. Be responsible for any and all other activities related to the 
administration of livestock grazing and all other uses or activities on 
the national grasslands covered by this agreement except those 
specifically delegated to the association.

                    E. ASSOCIATION RESPONSIBILITIES

    The association will:
    1. Develop Rules of Management (ROM) to facilitate administration 
of the livestock grazing activities authorized by the Forest Service 
under this agreement.
    2. Submit the ROM to the Forest Service for review and approval.
    3. Issue association-issued term grazing permits for the lands 
covered by this agreement for a period not to exceed 10 years or the 
date of expiration of this agreement, whichever is shorter. Issue 
association-issued temporary grazing permits as provided for in the 
ROM. The current association members are listed in exhibit E.
    4. Administer association issued grazing permits in conformance 
with applicable Federal law, regulation, policy and procedure, LMP and 
AMP direction, and the Forest Service approved ROM.
    5. Provide input to the Forest Service regarding the development of 
AMPs and AOPs for the grazing activity covered by this agreement and 
implement the Forest Service approved AMPs.
    6. Regularly monitor livestock grazing activities authorized by the 
Forest Service under this agreement to ensure they are consistent with 
direction in the LMP, AMPs, AOPs, and the ROM.
    7. Strive to integrate and consolidate association controlled lands 
in order to create natural management units and demonstrate sound land 
management programs and practices.
    8. Pay all fees due the United States under this agreement in a 
timely fashion. (Fees may be paid in two installments if provided in 
the ROM.)
    9. Identify potential land use practices necessary to facilitate 
livestock grazing covered by this agreement and submit a list of such 
practices to the Forest Service for review and approval.
    10. Implement required land use practices approved by the Forest 
Service in a timely fashion.
    11. Maintain existing improvements listed in exhibit D in a timely 
manner so that they serve their intended purpose and last for their 
expected lifetime.
    12. Submit to the Forest Service by the __ day of _____ of each 
year, completed Certification of Costs of Required Conservation 
Practices and Actual Administrative Costs forms with supporting 
information as may be required by the Forest Service.
    13. Cooperate in livestock counting, marking, or ear-tagging 
programs as deemed necessary.
    14. Take all reasonable precautions to prevent unauthorized 
livestock use.
    15. Cooperate with the Forest Service in the prosecution or defense 
of any action related to the administration of livestock grazing on the 
lands covered by this agreement.
    16. Maintain and retain records for the administration of livestock 
grazing activities authorized by the Forest Service under this 
agreement as if the Forest Service were directly administering 
association-issued term grazing permits. Said records might include, 
but are not limited to: association member eligibility and 
qualification requirements, association-issued grazing permits, 
documents pertaining to the investigation and enforcement of 
association-issued grazing permit terms and conditions, bills for 
collection, actual use records, monitoring, administration of use, and 
land use practice costs.
    17. Separate association records unrelated to the administration of 
livestock grazing authorized by the Forest Service under this agreement 
from those records described in # 16 above.
    18. Make available to the Forest Service upon request the records 
identified in # 16 above for inspection and copying. There shall be no 
deletions or redactions in the records and they shall be provided to 
the Forest Service within the existing Forest Service approved 
administration costs. Should copying result in a significant, 
unanticipated cost to the association, the Forest Service shall allow 
additional administration costs or pay the association.
    19. Fully cooperate with the Forest Service in the timely 
processing of Freedom of Information Act (FOIA) requests for agency 
records pertaining to the livestock grazing activities authorized by 
the Forest Service under this agreement that are in the possession of 
the association.
    20. Promptly investigate allegations of violations of association-
issued grazing permit terms and conditions by association members.
    21. Report to the Forest Service all claims of alleged association-
issued permit violations and the outcome of the association's 
investigation of those claims.
    22. Where appropriate, take action, following the investigation of 
alleged permit violations, to suspend or cancel association-issued term 
grazing permits, in whole or in part. Where taken, permit action should 
be in cooperation with the Forest Service and be consistent with the 
policies set forth in section 16.
    23. Attempt to resolve disputes between association members or 
between an association member and the association before requesting 
assistance from the Forest Service.
    24. Provide for Forest Service entry on association controlled 
lands to determine whether the livestock grazing activities provided by 
association-issued grazing permits are being carried out in conformance 
with applicable Federal law, regulation, Forest Service policies and 
procedures, and the terms and conditions of this agreement.
    25. Ensure all association members comply with qualifying base 
property and livestock ownership requirements in the ROM.
    26. Prepare as necessary, with Forest Service assistance, an annual 
plan of work for each employee of the association.

                       F. ADDITIONAL REQUIREMENTS

    1. Holders of association-issued term grazing permits must satisfy, 
at a minimum, the same eligibility and qualification requirements that 
apply to the holders of Forest Service term grazing permits, unless 
otherwise provided in this agreement and the attached Rules of 
Management.
    2. This agreement shall be issued for ten years unless the national 
grasslands shown in exhibit A and described in exhibit B is pending 
disposal or will be devoted to a different public purpose that 
precludes livestock grazing prior to the end of 10 years, or if the 
Forest Service determines it will be in the best interest of sound land 
management to specify a shorter term.
    3. Association-issued term grazing permits may be issued for up to 
ten years but may not extend beyond the expiration date of this 
agreement.
    4. This agreement may be terminated immediately, or modified by the 
Forest Service if the national grasslands shown in exhibit A and 
described in exhibit B are required for military or national security 
purposes.
    5. This agreement may be terminated by either party, with or 
without cause, six months after sending written notice to the other 
party; if the 6 month period expires between May 1 and November 30, the 
effective date of the termination will be February 28 of the following 
year.
    6. This agreement may be amended at any time by the mutual consent 
of the parties.
    7. This agreement may be amended by the Forest Service thirty (30) 
days after written notice to the association in order to bring the 
agreement into conformance with changes in law, regulation, policy, LMP 
direction, range improvement status, or grazing capacity associated 
with a change in the lands administered by the association.
    8. Violation of any of the terms and conditions of this agreement 
may result in the suspension, cancellation or termination of this 
agreement.
    9. Failure of the association to promptly inspect and enforce where 
necessary, alleged violations of this agreement or association-issued 
grazing permit terms and conditions may lead to action by the Forest 
Service to suspend, cancel, or terminate this agreement.
    10. This agreement may not exceed 10 years in length and expires on 
the 28th day of February 20----, unless terminated as provided above or 
cancelled in accordance with applicable Federal law or regulations.
    11. The permanent improvements on NFS lands identified in exhibit D 
are the property of the United States unless specifically designated 
otherwise or authorized by a Forest Service issued special use permit. 
In some cases, the improvements constructed by the grazing association 
may be entitled to compensation based on the extent of the 
association's financial contribution. However, no portion of the 
improvement funded by conservation practices shall be eligible for 
compensation (FSH 2209.13, chapter 70).
    12. This agreement is subject to all rules and regulations of the 
Secretary of Agriculture and may be suspended or cancelled, in whole or 
in part, or terminated for noncompliance therewith.
    13. Any disagreement between the association and the Forest Service 
regarding an interpretation of the Secretary's rules and regulations 
shall be resolved in favor of the Forest Service's interpretation.
    14. If the association disagrees with a decision by the Forest 
Service authorized officer pertaining to the administration of grazing 
on the lands covered by this agreement, it can request further review 
of the decision by the Forest Service authorized officer. The 
association may present its case in writing, orally, or both. If the 
association remains dissatisfied after this review, it may file an 
administrative appeal or request mediation in accordance with 36 CFR 
part 251.
    15. If an association member disagrees with an association 
decision, the member must first seek review of the decision by the 
association. Association members may not appeal association decisions 
related to the grazing use distributed under an association-issued 
permit pursuant to 36 CFR part 251. Review by a Forest Service 
authorized officer may be sought only seeking review by the 
association. Association members may not appeal Forest Service 
decisions related to the grazing authorized by the Forest Service under 
this agreement pursuant to 36 CFR part 251.
    16. No member of, or delegate to, Congress shall be admitted to any 
share or part of this agreement or to any benefit that may arise, 
unless it be made with a corporation for its general benefit.
    17. The association shall comply with the non-discrimination 
provisions of Title VI of the Civil Rights Act, applicable USDA 
regulations, and Executive Order 11246.
    18. Exhibits to this agreement include:
    Exhibit A. Map of All Lands Covered by this Agreement
    Exhibit B. List of National Forest System Lands Covered by this 
            Agreement
    Exhibit C. List of State, Private, and Other Lands Covered by this 
            Agreement
    Exhibit D. List of Improvements Owned by the Forest Service
    Exhibit E. Association Membership List
    Exhibit F. List of Permitted AUMs for National Forest System, 
            State, Private, and Other Lands on Allotments Covered by 
            this Agreement

Signed this the __ day of _____, 20__

______
President

______ Grazing Association
[MAILING ADDRESS]

Signed this the __ day of _____, 20__

________
Forest/Grassland Supervisor

_____ National Forest/National Grassland
[MAILING ADDRESS]
                                 ______
                                 

    USDA-Forest Service        Exhibit 2        FS-2200-136 (02/05)

          GRAZING AGREEMENT for Grazing Associations Operating

                          on National Forests

                    (Reference FSH 2209.13, Ch. 20)

                            Permittee Number

                             Permit Number

                UNITED STATES DEPARTMENT OF AGRICULTURE,

                          U.S. FOREST SERVICE

                                  AND

             ______ GRAZING ASSOCIATION OR GRAZING DISTRICT

                       GRAZING AGREEMENT # ______

    THIS GRAZING AGREEMENT IS BETWEEN THE U.S. FOREST SERVICE, AN 
AGENCY OF THE UNITED STATES DEPARTMENT OF AGRICULTURE (HEREINAFTER 
``THE FOREST SERVICE''), AND THE ______ GRAZING ASSOCIATION OR GRAZING 
DISTRICT (HEREINAFTER ``THE ASSOCIATION''), A GRAZING COOPERATIVE 
ESTABLISHED UNDER THE LAWS OF THE STATE OF ______.

    THIS AGREEMENT IS FOR THE ANNUAL PERMITTED USE OF ______ ANIMAL 
UNIT MONTHS OF GRAZING ON THAT PORTION OF THE ______ NATIONAL FOREST IN 
______ COUNTY (IES) AS SET FORTH IN EXHIBITS A-F ATTACHED HERETO AND 
INCORPORATED BY REFERENCE HEREIN.

                             A. DEFINITIONS

    1. Allotment. An area of land represented on a map, which is 
designated for livestock grazing and comprises a logical grazing 
management unit. An allotment can be comprised of both NFS lands and 
non-NFS lands. Permits are issued for allotments or portions of 
allotments.
    2. Allotment Management Plan. A document that implements a decision 
through specifying the program of action designed to reach a given set 
of objectives for an allotment. It is prepared in consultation with the 
association and:
    i. Prescribes the manner in and extent to which livestock 
            operations will be conducted in order to meet the multiple-
            use, sustained yield, economic, and other needs and 
            objectives as determined for the lands involved;
    ii. Describes the location, ownership, and general specifications 
            for the rangeland improvements in place, or to be installed 
            and maintained, on the land to meet the livestock grazing 
            and other objectives of land management; and
    iii. Contains such other provisions relating to livestock grazing 
            and other objectives as may be prescribed by the authorized 
            officer, consistent with applicable law.
    3. Animal Unit (AU). One mature (1,000 pounds) cow or the 
equivalent based upon average forage consumption of 26 pounds of dry 
matter per day. Five sheep or goats are the general equivalent of one 
cow.
    4. Animal Unit Month (AUM). The amount of feed or forage required 
by an animal unit for one month.
    5. Annual Operating Provisions (AOPs). Detailed Forest Service 
approved instructions developed by the association for livestock 
grazing administration to be implemented in a given year on a given 
allotment. AOPs are based on the AMP and may address the number of 
livestock permitted to graze, season of use, responsibilities for 
improvement construction or maintenance, and pasture rotation 
schedules.
    6. Association Administered Lands. Lands administered by the 
association for livestock use including, but not limited to, private, 
State, other agency, and NFS lands.
    7. Association Controlled Lands. Private or State lands leased, 
owned, or controlled by the association by a member or non-member for 
administration of grazing activities and management purposes.
    8. Association-Issued Temporary Grazing Permit. A grazing permit 
issued by the association to a member or a non-member for a period not 
to exceed 1 year, and which has no priority for issuance upon 
expiration.
    9. Association-Issued Term Grazing Permit. A grazing permit issued 
by the association to a member authorizing livestock grazing on certain 
lands covered by this agreement for a specific period not to exceed ten 
years or the expiration date of this agreement, whichever is shorter. 
The holder has priority for receipt of a new permit upon expiration of 
the previous term permit provided the holder has fully complied with 
the expiring permit's terms and conditions.
    10. Cancellation. The action taken to permanently invalidate a 
grazing permit in whole or in part. The canceling party retains any 
remedy for breach.
    11. Excess Livestock. Any livestock owned or controlled by the 
holder of a grazing permit issued by the grazing association, but 
grazing on NFS lands in greater numbers, or at times or places other 
than that provided in the association-issued grazing permit, grazing 
agreement, or on the bill for collection.
    12. Forest Service Policies and Procedures. Those policies and 
procedures established by the Chief of the Forest Service (and 
supplemented by the regional forester and forest supervisor) in the 
Forest Service Directive System for use, management, and protection of 
NFS lands. With respect to rangeland management and the administration 
of livestock grazing on NFS lands, these policies and procedures are 
set forth in Forest Service Manual (FSM) 2200, Rangeland Management and 
Forest Service Handbook (FSH) 2209.13, Grazing Permit Administration 
Handbook.
    13. Grazing Agreement. A type of term grazing permit. It authorizes 
eligible associations organized under State law to graze livestock on 
NFS lands and includes provisions for the associations to issue 
association-issued grazing permits to association members and 
administer the permits in conformance with applicable law, regulation, 
LMP and AMP direction, the terms and conditions of the grazing 
agreement and the association's rules of management.
    14. Grazing Fee is the annual charge per head month for grazing use 
on NFS lands. It is also the total amount paid by the association to 
the Forest Service for the privilege of grazing livestock on lands 
covered by the grazing agreement and is the amount shown on the bill 
for collection.
    15. Head Month. One month's use and occupancy of the rangeland by 
one weaned or adult cow (with or without calf), bull steer, heifer, 
horse, burro, mule, bison, ewe (with or without lambs), ram, or goat.
    16. Land Management Plan (LMP). Required by the National Forest 
Management Act of 1976, is developed for each unit of the NFS, and 
provides direction for the management of the lands and resources of 
that unit. The ______ LMP, adopted in ______, establishes the kind of 
management practices that may occur and the timing and location of 
these practices.
    17. National Forest System (NFS) Lands. Federally owned forest, 
range, and related lands and resources throughout the United States and 
its territories. NFS lands include all national forest lands reserved 
or withdrawn from the public domain of the United States, all national 
forest lands acquired through purchase, exchange, donation, or other 
means, the national grasslands and land utilization projects 
administered under Title III of the Bankhead-Jones Farm Tenant Act, and 
other lands, waters, or interests therein which are administered by the 
Forest Service or are designated for administration through the Forest 
Service as a part of the system.
    18. Rules of Management (ROM). The set of Forest Service approved 
policies, procedures, and practices developed by the association for 
their use in administering livestock grazing on the lands covered by 
this agreement.
    19. Suspension. Temporary withholding of an agreement or permit 
privilege, in whole or in part.
    20. Termination. Ending an agreement or permit without questioning 
whether the terms and conditions contained in the agreement or permit 
have been broken by either side.
    21. Unauthorized Livestock. Any cattle, sheep, goat, hog, bison, or 
equine not defined as a wild free-roaming horse or burro, which is not 
provided by permit (or bill for collection). Noncommercial pack and 
saddle stock used by recreationists, travelers, other forest and 
grassland visitors for occasional trips, and livestock trailed over an 
established driveway when there is no overnight stop on National Forest 
System land do not fall under this definition.
    22. Unauthorized Use Rate. The fee charge for excess or 
unauthorized livestock use.

                               B. PURPOSE

    The purpose of this agreement is to:
    1. Authorize the association to administer the permitted livestock 
grazing activities of its members on the lands covered by this 
agreement consistent with applicable Federal law, regulation, Forest 
Service policies and procedures, and direction in the LMPs and AMPs.
    2. Extend sound practices of rangeland resource management through 
demonstration and by working with other Federal, State, local, or 
private landowners to administer livestock grazing activities 
consistently across rangelands regardless of the ownerships involved.

                   C. THE PARTIES JOINTLY AGREE THAT

    1. The principal objective of this agreement is to secure sound 
resource management on all lands covered by this agreement.
    2. They will cooperate with each other and assist individuals, 
local, State, and Federal agencies to demonstrate sound and practical 
principles of land use and resource management on the lands covered by 
this agreement.
    3. The vegetation resource will be developed to its reasonable 
sustainable potential to provide for all values and uses, which include 
but are not limited to, livestock grazing.
    4. Livestock grazing is one of the many recognized multiple uses 
that occurs on the NFS lands covered by this agreement.
    5. All of the multiple use activities occurring on the lands 
covered by this agreement must be carried out consistent with the 
applicable laws and regulations governing the occupancy and use of NFS 
lands.
    6. The Forest Service's authority to permit other uses or 
activities besides livestock grazing on the lands covered by this 
agreement is not affected by this agreement.
    7. The Forest Service is responsible for the authorization and 
administration of grazing on NFS lands in accordance with applicable 
Federal law, regulation, Forest Service policies and procedures, and 
LMP direction.
    8. Through this agreement, the association agrees to administer 
livestock grazing activities for association-issued grazing permits on 
those NFS lands shown in exhibit A and described in exhibit B. 
Administration shall be in accordance with applicable Federal law, 
regulation, Forest Service policies and procedures, and LMP direction.

                   D. FOREST SERVICE RESPONSIBILITIES

    The Forest Service will:
    1. Make available to the association the NFS lands shown in exhibit 
A and described in exhibit B and the rangeland improvements described 
in exhibit D for livestock grazing purposes.
    2. Determine permitted numbers and seasons of use for the NFS lands 
shown in exhibit A and described in exhibits B and F in accordance with 
Forest Service policies and procedures.
    3. Assist the association in the determination of permitted numbers 
and seasons of use for the association controlled lands identified in 
exhibit C.
    4. Notify the association on or before the __ day of ______ of each 
year of the grazing fee to be paid for livestock use on the NFS lands 
identified in exhibit B planned for the upcoming season of use. 
Additional fees or credits accrued for the past grazing season is not 
reflected in the estimated grazing fee paid at the beginning of the 
season. Such unanticipated fees or credits may include adjustments in 
actual grazing use, where grazing was greater than or less than 
originally authorized (final Forest Service fee determination).
    5. Prepare AMPs and AOPs, in consultation and coordination with the 
association and the affected members(s).
    6. Review and approve the ROM developed by the association if they 
are consistent with applicable law, regulation, Forest Service policies 
and procedures, LMP direction, and the terms and conditions of this 
agreement.
    7. Perform improvement work, as deemed necessary or desirable on 
NFS lands, other than those improvements that are the responsibility of 
the association under this agreement.
    8. Reserve the right (but not the obligation) to take appropriate 
administrative action or to prosecute any act or omission involving 
violations of Federal law, regulation, or Forest Service policies or 
procedures pertaining to livestock grazing on NFS lands including, but 
not limited to, excess and unauthorized use, or noncompliance with the 
terms and conditions of this agreement and the ROM.
    9. Require the association to implement appropriate structural and 
non-structural rangeland improvements on association administered lands 
that are necessary to obtain proper livestock use and resource 
management.
    10. Furnish the association with appropriate technical assistance 
necessary for implementation of required range improvements, and 
provide updated specifications as they become available.
    11. Comply with the Freedom of Information Act (FOIA) and other 
relevant laws and regulations when responding to requests from the 
public for information pertaining to grazing administered by the 
association on NFS lands covered by this agreement.
    12. Audit the association's records at least once every 5 years to 
ensure the association is in compliance with the terms and conditions 
of this agreement and the ROM.
    13. Agree to review disputes between association members or between 
an association member and the association only after the affected 
parties have made a good faith effort to resolve the dispute between 
them.
    14. Be responsible for any and all other activities related to the 
administration of livestock grazing and all other uses or activities on 
the NFS lands covered by this agreement except those specifically 
delegated to the association.

                    E. ASSOCIATION RESPONSIBILITIES

    The association will:
    1. Develop Rules of Management (ROM) to facilitate administration 
of the livestock grazing activities authorized by the Forest Service 
under this agreement.
    2. Submit the ROM to the Forest Service for review and approval.
    3. Issue association-issued term grazing permits on the lands 
covered by this agreement for a period not to exceed 10 years or the 
date of expiration of this agreement, whichever is shorter. Issue 
association-issued temporary grazing permits as provided for in the 
ROM. The current association members are listed in exhibit E.
    4. Administer association-issued term grazing permits in 
conformance with applicable Federal law, regulation, policy and 
procedure, LMP and AMP direction, and the Forest Service approved ROM.
    5. Provide input to the Forest Service regarding the development of 
AMPs and AOPs for the grazing activity covered by this agreement and 
implement the Forest Service approved AMPs and AOPs.
    6. Regularly monitor livestock grazing activities authorized by the 
Forest Service under this agreement to ensure they are consistent with 
direction in the LMP, AMPs, AOPs, and the ROM.
    7. Strive to integrate and consolidate association controlled lands 
in order to create natural management units and demonstrate sound land 
management programs and practices.
    8. Pay all fees due the United States under this agreement in a 
timely fashion.
    9. Identify potential land use practices necessary to facilitate 
livestock grazing covered by this agreement and submit a list of such 
practices to the Forest Service for review and approval.
    10. Implement and construct the rangeland improvements required by 
the Forest Service in a timely fashion.
    11. Maintain existing improvements listed in exhibit D in a timely 
manner so that they serve their intended purpose and last for their 
expected lifetime.
    12. Submit to the Forest Service by the __ day of ______ of each 
year, completed Certification of Costs of Required Conservation 
Practices form with supporting information as may be required by the 
Forest Service.
    13. Cooperate in livestock counting, marking, or ear tagging 
programs as deemed necessary.
    14. Take all reasonable precautions to prevent unauthorized 
livestock use. Cooperate with the Forest Service in the prosecution or 
defense of any action related to the administration of livestock 
grazing on the lands covered by this agreement, including charging for 
such use at the established unauthorized use rate.
    15. Cooperate with the Forest Service in the prosecution or defense 
of any action related to the administration of livestock grazing on the 
lands covered by this agreement.
    16. Maintain agency records related to the administration of 
livestock grazing activities authorized by the Forest Service under 
this agreement that would otherwise be retained by the Forest Service 
if it were directly administering livestock grazing through Forest 
Service term grazing permits. Said records might include, but are not 
limited to: association member eligibility and qualification 
requirements, association-issued grazing permits, documents pertaining 
to the investigation and enforcement of association-issued grazing 
permit terms and conditions, bills for collection, and actual use 
records.
    17. Separate association records unrelated to the administration of 
livestock grazing authorized by the Forest Service under this agreement 
from those records described in #16 above.
    18. Make available to the Forest Service upon request, the records 
identified in #16 above for inspection and copying. There shall be no 
deletions or redactions in the records and they shall be provided to 
the Forest Service within the existing Forest Service approved 
administration costs. Should copying result in a significant, 
unanticipated cost to the association, the Forest Service shall allow 
additional administration costs or pay the association.
    19. Fully cooperate with the Forest Service in the timely 
processing of Freedom of Information Act (FOIA) requests for agency 
records pertaining to livestock grazing activities permitted under this 
agreement that are in the possession of the association.
    20. Promptly investigate allegations of violations of association-
issued grazing permit terms and conditions by association members.
    21. Report to the Forest Service all claims of alleged association-
issued permit violations and the outcome of the association's 
investigation of those claims.
    22. Where appropriate, take action, following the investigation of 
alleged permit violations, to suspend or cancel association-issued 
grazing permits, in whole or in part, resulting from permit violations. 
Where taken, permit action should be in cooperation with the Forest 
Service and be consistent with the policies set forth in FSH 2209.13, 
section 16.
    23. Attempt to resolve disputes between association members or 
between an association member and the association before requesting 
assistance from the Forest Service.
    24. Provide for Forest Service entry on association controlled 
lands to determine whether the livestock grazing activities provided by 
association-issued grazing permits are being carried out in conformance 
with applicable Federal law, regulation, Forest Service policies and 
procedures, and the terms and conditions of this agreement.
    25. Take all reasonable precautions to prevent unauthorized 
livestock use. Cooperate with the Forest Service in the prosecution or 
defense of any action related to the administration of livestock 
grazing on the lands covered by this agreement, including charging for 
such use at the established unauthorized use rate.
    26. Ensure all association members comply with qualifying base 
property and livestock ownership requirements as set forth in Forest 
Service regulations, policies, and procedures.
    27. Prepare as necessary, with Forest Service assistance, an annual 
plan of work for each employee of the association.

                       F. ADDITIONAL REQUIREMENTS

    1. Holders of association-issued term grazing permits must satisfy 
the same eligibility and qualification requirements that apply to the 
holders of Forest Service term grazing permits.
    2. This agreement shall be issued for 10 years unless the NFS land 
shown in exhibit A and described in exhibit B is pending disposal or 
will be devoted to a public purpose that precludes livestock grazing 
prior to the end of 10 years, or if the Forest Service determines it 
will be in the best interest of sound land management to specify a 
shorter term.
    3. Association-issued term grazing permits may be issued for up to 
10 years, but may not extend beyond the expiration date of this 
agreement.
    4. This agreement may be immediately terminated or modified by the 
Forest Service if the NFS land shown in exhibit A and described in 
exhibit B are required for military or national security purposes.
    5. This agreement may be terminated by either party, with or 
without cause, 6 months after sending written notice to the other 
party; if the 6 month period expires between May 1 and October 31, the 
effective date of the termination will be December 31.
    6. This agreement may be amended at any time by the mutual consent 
of the parties.
    7. This agreement may be amended by the Forest Service 30 days 
after written notice to the association in order to bring the agreement 
into conformance with changes in law, regulation, policy, LMP 
direction, range improvement status, or grazing capacity associated 
with a change in the lands administered by the association.
    8. Violation of any of the terms and conditions of this agreement 
may result in the suspension, cancellation, or termination of this 
agreement.
    9. Failure of the association to promptly inspect and enforce where 
necessary alleged violations of this agreement or association-issued 
grazing permit terms and conditions may lead to action by the Forest 
Service to suspend, cancel or terminate this agreement.
    10. This agreement may not exceed 10 years in length and expires on 
the 31st day of December 20 ----, unless terminated as provided for 
above or cancelled in accordance with applicable Federal law or 
regulations.
    11. The permanent improvements on NFS lands identified in exhibit D 
are the property of the United States unless specifically designated 
otherwise or authorized by a Forest Service issued special use permit. 
In some cases, the improvements constructed by the grazing association 
may be entitled to compensation based on the extent of the 
association's financial contribution. However, no portion of the 
improvement funded by conservation practices shall be eligible for 
compensation (FSH 2209.13, ch. 70).
    12. This agreement is subject to all rules and regulations of the 
Secretary of Agriculture and may be suspended or cancelled, in whole or 
in part, or terminated for noncompliance therewith.
    13. Any disagreement between the association and the Forest Service 
regarding an interpretation of the Secretary's rules and regulations 
shall be resolved in favor of the Forest Service's interpretation.
    14. If the association disagrees with a decision by the Forest 
Service authorized officer pertaining to the administration of grazing 
on the lands covered by this agreement, it can request further review 
of the decision by the Forest Service authorized officer. The 
association may present its case in writing, orally, or both. If the 
association remains dissatisfied after this review, it may file an 
administrative appeal or request mediation in accordance with 36 CFR 
part 251.
    15. If an association member disagrees with an association 
decision, the member must first seek review of the decision by the 
association. Association members may not appeal association decisions 
related to the grazing use distributed under an association-issued 
permit pursuant to 36 CFR part 251. Review by a Forest Service 
authorized officer may be sought only seeking review by the 
association. Association members may not appeal Forest Service 
decisions related to the grazing authorized by the Forest Service under 
this agreement pursuant to 36 CFR part 251.
    16. No member of, or delegate to, Congress shall be admitted to any 
share or part of this agreement or to any benefit that may arise, 
unless it be made with a corporation for its general benefit.
    17. The association shall comply with the non-discrimination 
provisions of Title VI of the Civil Rights Act, applicable USDA 
regulations, and Executive Order 11246.
    18. Exhibits to this agreement include:
    Exhibit A. Map of All Lands Covered by this Agreement
    Exhibit B. List of National Forest System Lands Covered by this 
            Agreement
    Exhibit C. List of State, Private, and Other Lands Covered by this 
            Agreement
    Exhibit D. List of Improvements Owned by the Forest Service
    Exhibit E. Association Membership List
    Exhibit F. List of Permitted AUMs for National Forest System, 
            State, Private, and Other Lands on Allotments Covered by 
            this Agreement

Signed this the __ day of ______, 20__

________
President

______ Grazing Association/Grazing District
[MAILING ADDRESS]

Signed this the __ day of ______, 20__

_______
Forest/Grassland Supervisor

______ National Forest/National Grassland
[MAILING ADDRESS]
Grazing Agreements, FSH 2209.13, Chapter 20, Section 24.11
    This proposed provision would establish a 7-year limit on leasing 
of property to satisfy base property ownership qualification 
requirements for association-issued term grazing permits on national 
grasslands. We propose that 7 years is a sufficient time to acquire 
ownership of necessary base property.
Grazing Agreements, FSH 2209.13, Chapter 20, Section 24.12
    This proposed provision would establish a 7-year limit on share 
livestock agreements to satisfy livestock ownership qualification 
requirements for association-issued term grazing permits on national 
grasslands. We propose that 7 years is sufficient time for the 
permittee to acquire full individual livestock ownership.
    Proposed Sections 24.11 and 24.12 propose a 7-year limit on share 
livestock and leasing of base property. This limit is intended to 
ensure fair and consistent policy to all who qualify.

                               CONCLUSION

    The Forest Service recognizes and values the benefits livestock 
grazing permittees contribute to the management of National Forests and 
Grasslands. We believe the proposed amendments to the Forest Service 
Rangeland Manual and Handbook meet both management and permittee needs. 
However it is our intent to make every effort to engage the public by 
providing information on the proposed directives and seeking comments 
from ranchers, grazing associations, state and local officials, Tribal 
governments and other stakeholders.
    Mr. Chairman, this concludes my prepared statement. We would be 
happy to answer any questions you or other members of the subcommittee 
may have.

    Senator Dorgan. Well, Ms. Kimbell, thank you very much. Let 
me begin a series of questions, some of which will come from 
testimony that will be submitted later today which I have read 
because it was submitted to the committee before this morning.
    You talk about the offending language as one sentence that 
appears twice. I'm going to talk about that and more expansive 
views what is offending.
    First of all let me ask, how did this happen? I mean, first 
of all, I appreciate the fact that you have withdrawn it at 
this point, but how does it happen that this gets through the 
process?
    I assume you, Mr. Pieper and others, Ms. Kaiser, would know 
language that's going to effect something that's been going on 
for 70 years, the leasing policies that are so important to 
ranchers in North Dakota, the changing of that as you would 
propose would cause a fire storm of protest. So how did that 
happen?
    Ms. Kimbell. We've been working on the revision of, as I 
said, 16 chapters of the Forest Service manuals and handbooks 
for quite a number of years.
    The Dakota Prairie personnel, the Forest Service personnel 
working on the Dakota Prairie Grasslands have held a number of 
meetings with different Grazing Associations, different 
organizations and actually taking comment, forwarding comment.
    My office forwarded that comment, aggregated the comment 
that we have from all of our units that have grazing programs, 
and forwarded that to our national office. There is a 
tremendous amount of detail in those 16 chapters that were just 
recently released. And again, I apologize for the language that 
this one sentence has brought us to today. And we have 
withdrawn it, and we will make it right.
    Janette, do you want to add anything to that?
    Ms. Kaiser. I think your basic question is how did we make 
the mistake? The sentence basically has been interpreted to 
mean that we would withdraw the opportunity of leasing where it 
isn't in place at the current time. Remember a handbook is 
instruction to people in the field. It says: Here's how you go 
about doing business.
    The intent was to remind them that subleasing or leasing--
share livestock and leasing of base property is not a provision 
that we have the authority for outside of the National 
Grasslands. That was the intent of that language. How it got 
changed I can't tell you, but I can say we're sorry.
    Senator Dorgan. Well, have you removed the proposed 7 year 
limit on leasing, or is the entire leasing proposal eliminated, 
or have you just eliminated the one sentence?
    Ms. Kimbell. We eliminated the sentence that stated that 
leasing would no longer be allowed. We've eliminated that.
    Senator Dorgan. So if leasing is allowed, tell me about the 
7 year limit that exists in your handbook.
    Ms. Kimbell. The 7 years that's there in the handbook is 
both with leasing of base property and leasing of livestock. 
It's a generally accepted time period in the industry that it 
takes 7 years to be able to build a herd when you're working 
with a leased herd.
    Senator Dorgan. So that has not been changed?
    Ms. Kimbell. But it's not listed--it's not intended to be a 
7 year limit. It's a 7 year agreement at a time so that a 
person may enter, and as you stated I believe, Senator, that 
you know, leases are often 3 years.
    Leases do vary from 3 years to 7 years normally, and at the 
end of that period, there could be a new lease issue depending 
on the agreement----
    Senator Dorgan. My point is you apparently have changed--
you apparently are apologizing for including a sentence that 
says leasing shall not be permitted on base property.
    Ms. Kimbell. That's correct.
    Senator Dorgan. But as you know, there are other things 
that attach to the leasing restrictions and changes that you 
are making.
    Let me ask then, if nothing else has been removed, there 
still remains some changes with respect to leasing practices in 
this handbook. Why would the Forest Service have been 
considering, discussing and talking about these changes without 
consultation with the ranchers?
    I know you say that there were some meetings. Do you think 
any ranchers came to a meeting here in North Dakota and came 
away from that meeting understanding that, you know, the Forest 
Service now is going to just change this whole leasing 
situation.
    Do you think there's anybody here in this room that will 
say they went to a meeting and came away with that 
understanding?
    Ms. Kimbell. I don't believe any of Dave's employees would 
have implied that that was the intent, because certainly, it 
was not the intent. And yet, I don't argue that the language 
came out reading that way.
    Senator Dorgan. Right. But you're talking about the 
sentence. I'm talking about the larger proposal on changes in 
leasing, one of which is the sentence which would prohibit, the 
others of which include the 7 year and other guidance.
    My point is why was that such a surprise to ranchers? Was 
it because the Forest Service didn't alert anybody to this, 
because the Forest Service wasn't in consultation with the 
ranchers?
    Mr. Pieper, did you know it?
    Mr. Pieper. No. I was not aware of the--excuse me. Thank 
you, first, for inviting me, Senator Dorgan and Congressman 
Pomeroy.
    I met with the grazing associations about 2 years ago, with 
the presidents of the grazing associations to discuss the 
leasing situation, and I think what brought that about were a 
couple different issues.
    First off, there was some direction from a forest 
supervisor from the Custer National Forest in 1987 that kind of 
stipulated what livestock grazing and leasing would be about. 
The basic premise there was that it was to get new ranchers 
into ranching. That was the basic premise.
    From what I've discerned over the years is that probably 
prior to 1985 that was occurring quite frequently.
    Senator Dorgan. Let me stop you there just for a moment. 
The premise was from someone in the Custer--who described this 
premise?
    Mr. Pieper. The then Forest Supervisor on the Custer 
National Forest, and at that time----
    Senator Dorgan. Just his opinion that this was a 7 year 
practice to try to get young and new ranchers into the----
    Mr. Pieper. Well, I think the idea was, yes, to get new 
ranchers into the system and to use leasing and share cattle 
agreements.
    That basically, we know that's been occurring in North 
Dakota probably since the 1930s. So rather than eliminating 
that policy or some kind of proposal like that, how do we work 
with it? So they were trying to put some side boards on it.
    Senator Dorgan. This is more than side boards.
    Mr. Pieper. Well, now it's--you're absolutely right. So I 
met with the Grazing Association presidents about 2 years ago. 
We discussed this.
    We came away with--and by that I mean myself and my staff--
that we need to transition into some new program with leasing. 
We're going to keep leasing on the National Grasslands. It's 
important to the livestock grazers and it's important to us. 
But we didn't propose any time frames at that time.
    Senator Dorgan. I want to take enough time so that I 
understand this because I still don't think I'm getting to the 
point I was trying to make.
    You're making some changes with respect to leasing. You're 
just removing the language that says leasing of base property 
shall be--we're going to prohibit some of the leases base 
property from having grazing rights. But you eliminate that 
sentence, but there are other changes, other proposals that you 
have with respect to leasing; correct?
    Mr. Pieper. Correct. The 7 years is the proposal.
    Senator Dorgan. That's right. Did you have a chance to--did 
the Forest Service decide we're going to talk to ranchers about 
that? We're going to fly that out there and see how that works 
and see how they react to that before we decide to put this in 
a handbook?
    Mr. Pieper. No, sir. I was not aware of the 7 year 
proposal.
    Senator Dorgan. So how does that happen, Ms. Kimbell, that 
Mr. Pieper, who we fought for a long time to get a position 
here as the supervisor of the grasslands isn't aware of a 
proposal that's going to have, I think, can have a significant 
impact on the grasslands? How does it work that he's out of the 
line of understanding here?
    Ms. Kimbell. He shouldn't have been.
    Senator Dorgan. So that's another mistake?
    Ms. Kimbell. When you're revising 16 chapters of Forest 
Service directives, there are a lot of different details that 
go into all of that.
    No, normally Dave would have been very aware of something 
that was that significant in regulation or in policy for the 
implementation of regulation. Dave would have been aware. I 
would have been aware. This caught us both by surprise.
    Senator Dorgan. So neither of you read the 16 chapters?
    Ms. Kimbell. We did about the same time you got them.
    Senator Dorgan. What on earth is going on here? I mean, how 
is it that there's 16 chapters coming out of the Forest 
Service. You're the Regional Forester. Dave is in charge of 
North Dakota, and you haven't read them when they're published?
    Who in the hell is publishing this without having people 
down in the Forest Service understanding what they're 
publishing and not having you read it?
    Even more important, why are they publishing something 
without having meetings and giving ranchers an opportunity to 
understand what you're trying to do?
    It's one thing to--I mean, I came here understanding that 
ranchers didn't know it was happening because the Forest 
Service didn't bother to tell them.
    Now I hear an understanding that you didn't know it was 
happening because you hadn't read the 16 chapters that were 
published in the handbook. What on earth is going on in the 
Forest Service?
    Ms. Kimbell. We have made known our concerns, since 
receiving your letter, Senator Dorgan, but even before that, as 
our staffs were reviewing the materials that were provided to 
us raising this as a concern.
    We have taken those steps to have those pieces of the 
published documents removed and set as a proposal so that we 
can have those discussions, so that we can work with ranchers 
and have those discussions at the local level, rather than have 
it come from the national office.
    Senator Dorgan. The changes are not with respect to 
leasing. It's Forest Service entry on private lands.
    We'll have testimony in a few minutes from Randy Mosser, 
Keith Winter, and Todd Anderson and they'll talk about 
definition differences and animal unit, a whole series of 
things. The Forest Service's ability to require conservation 
practices on private land.
    So 16 chapters and a handbook is published. You are not 
aware--you have not read it. Mr. Pieper hasn't read it. So who 
is responsible for that?
    Who is it in the national office that decided, you know 
what, we're going to throw 16 chapters out here, and we're not 
going to tell Ms. Kimbell, we're not going to tell Mr. Pieper 
what we're putting out? Who is responsible? Who do I look as 
accountable for this?
    Not the Agency. The Agency is some morphus big bureaucracy. 
I want to know who in the Agency decided to put out 16 chapters 
that will affect every rancher that has an allotment out here 
without giving you the opportunity to see the 16 chapters or 
Mr. Pieper, and especially without giving ranchers the 
opportunity.
    But who is responsible in the Forest Service? Who made the 
decision to publish the 16 chapters?
    Ms. Kaiser. The Chief of the Forest Service is responsible.
    Senator Dorgan. Now, I asked the Chief of the Forest 
Service to come here. It's Tuesday. He is at a conservation 
meeting of some type. Describe what that meeting is, if you 
would.
    Ms. Kaiser. It's a conference on collaboration with 
Secretary Johanns and a variety of individuals in interest 
groups, including the livestock industry, and seeking ways to 
better embrace collaboration with our partners throughout the 
USDA.
    Senator Dorgan. This is a serious issue. I'm not trying to 
make fun of anybody, but the Forest Service has darn little 
experience in collaborating it seems to me, and now the Chief 
is off collaborating today.
    I would have much sooner he'd have come to Bismarck to 
collaborate a little bit longer before these 16 pages were 
proposed, or 16 chapters I should say were proposed.
    It is, Ms. Kimbell, you I think are saying that the one 
sentence that appears twice has been removed, does not reflect 
the intent of the Forest Service?
    Ms. Kimbell. Correct.
    Senator Dorgan. That sentence is a sentence that would 
prohibit those who had leased base property to engage and to 
assume the grazing opportunities of the grasslands. So that is 
taken out.
    But as I've just described, those 16 chapters have many 
other provisions that will have an impact on the grazing 
associations, the way the grazing associations operate. In 
fact, those 16 chapters include provisions that will give 
people individual permits, rather than through the association. 
I think have provisions that are in conflict with North Dakota 
Law in some areas.
    So this is not just about one sentence, although that one 
sentence, I think, in many ways is a symptom of a deep and 
serious problem in the Forest Service about how they do things.
    There are some people, and we'll--I'm not suggesting those 
who are going to testify today are among them. There are some 
people that you couldn't satisfy under any circumstance any day 
of the week. They're going to complain about everything, and if 
you're not going to listen, they're going to show up the next 
day to complain.
    I understand that. I get a lot of letters who have a lot of 
complaints. I had one person that wrote 280 letters to me over 
3 years complaining. You know, God bless him.
    But the fact is there are some complaints that are very 
important and very legitimate, and I think North Dakota 
ranchers have a legitimate beef with the Forest Service because 
I think they've been mistreated here.
    It's not just about the one sentence. Ms. Kimbell, if you 
think it's about one sentence, then we're not connecting.
    Ms. Kimbell. Not for a minute, Senator, do I think it's 
about the one sentence.
    Senator Dorgan. So let's talk about the rest of it because 
we have 16 chapters that include a number of other provisions, 
which we'll hear about from future witnesses. It's about how 
the grazing associations interact with the Forest Service. 
That's one very important issue; right? I mean, there are a 
series of them.
    So those 16 chapters were put out in effect--I'm not quite 
sure exactly what has been rescinded at this moment, and then 
my understanding is the Forest Service is now going to go 
through a comment period and is moving head long into doing the 
kinds of things they should have done before in order to make 
these policies the official policies of the Forest Service with 
respect to managing the grasslands. Is that the case?
    Ms. Kimbell. Senator, as part of those 16 chapters is as 
Representative Pomeroy talked about. It was to correct language 
that was in a 1985 version of our manual and handbook, was to 
correct language to update it to recognize enacted law that has 
been enacted since 1985.
    It was also recognizing a great deal of case law that has 
been decided in those ensuing 20 years. So there's a lot of 
work that happened in those 16 chapters that was not--is not a 
matter of whether or not it's within the purview of the agency 
to make changes.
    It's to identify those things that have been enacted and 
changed at a national level that need to be reflected in the 
instruments, the legal instruments by which grazing occurs on 
public lands and the policies for managing the grazing on 
public lands.
    Senator Dorgan. I have no problem with that at all. The 
more routine, corrected measures that are necessary over time, 
I have no problem with that at all.
    There's also a 1988 leasing agreement with the U.S. Forest 
Service, and that 1988 leasing agreement, the North Dakota 
Grazing Associations have a signed agreement with the Forest 
Service for the leasing of Base Property and Share Livestock 
Agreement since 1988. You have a copy of that document.
    The Forest Service if it wished to somehow change that 
document it seems to me would have first gone to the ranchers, 
to the Grazing Associations, to others affected and said look, 
here's what we think. We're going to begin a process to effect 
a change. So you have open dialogue, open discussion, open 
debate, an open process. That's what should happen if one is 
going to go back and begin changes.
    The 1988 agreement, especially with respect to leasing and 
shared livestock agreements would have, I thought, required you 
to begin that kind of collaboration.
    Again, I asked the Chief of the Forest Service to come 
today. I don't have any idea how important this meeting is, but 
he's the person that I think is responsible for this and I----
    My feeling is this: I think these policy changes that have 
been recommended in this handbook, the policy changes need to 
be suspended, all of them suspended, under suspension, and then 
you need to begin a clean process working with and 
collaborating with grazing associations and ranchers. And we're 
going to look over the shoulders of the Forest Service as that 
happens.
    We may very well, and it may be in this subcommittee, we 
may very well take some actions that ties your hands here. We 
can do that. Senator Burns and I have talked about it on the 
telephone last week again.
    Senator Burns--you know, I can't speak for my colleague 
from Montana, but let me do it anyway. And he will have no 
problem with it. He feels as I do that the Forest Service is 
ham-handed and heavy-handed, and you need to be more 
collaborative and need to be working with people better.
    I think one of the problems here is you're all, you're a 
group with a title of ``forest''. We're dealing with 
grasslands, and the policies are very different, the needs are 
very different.
    Let me just conclude with this: I perhaps have a couple of 
other questions after Congressman Pomeroy inquires. We have in 
the testimony that will follow you today, and I am expecting 
you'll be able to stay and listen to the testimony. I hope you 
can, because I think it will be beneficial.
    We have testimony that will describe in some detail a range 
of policy changes. Not just leasing, but a range of changes, 
changes almost all of which have been put in this handbook 
without consultation with the grazing associations or the 
ranchers. That's unfair, and we're not going to let that 
happen.
    One way or another whether it's through this subcommittee, 
Senator Burns and myself or someone through some other device, 
we will intercede unless we understand that the Forest Service 
is operating in good faith and collaborating and consulting 
with and working with these ranchers. That has not been the 
case at this point.
    Let me ask Congressman Pomeroy to inquire, following up 
which I will ask a couple additional questions.
    Mr. Pomeroy. Thank you, Senator Dorgan, Mr. Chairman. Well, 
I assure you on the House side, the House Agriculture 
Committee, the authorizing committee for the Forest Service 
will also, I think, be deeply disturbed by the Agency practice 
as reflected in the conduct of the Forest Service to date.
    Now, Ms. Kaiser, let me get this straight, are you the 
attorney with the Forest Service?
    Ms. Kaiser. No, sir. I'm the Director for Rangelands for 
the Forest Service.
    Mr. Pomeroy. Can you or Ms. Kimbell tell me whether the 
Forest Service as an Agency practice has increasingly used 
interim directives as opposed to regulatory changes under the 
Administrative Practices Act?
    Ms. Kaiser. I don't know--I don't have the statistics on 
how many ideas we've had or whether or not there are an 
increase, there have been an increase in the use of them.
    But if I may, if I could explain the interim directive 
process and why we used it here, that may help.
    When we go out with a proposed change just as we have done 
by pulling the new items, the changes in policies, we pulled 
those and put those in a proposed amendment and that has 120 
day comment period.
    When we put out an interim directive, what we're able to 
do, those are only good for 18 months. So it's akin to test 
driving a car.
    Before you take 16 chapters and revise them, you put them 
out in an interim directive with--and I want to remind that we 
had no intent of limiting or removing leasing from our policy.
    But it allows the internal audience and external audience 
ample time, 18 months, to be able to figure out does this work, 
and gives us the opportunity out at the end of that 18 months 
to change it.
    Mr. Pomeroy. May I just point out, what an extraordinary 
change in executive branch practice that is.
    Senator Dorgan. Congressman Pomeroy, let me just interrupt 
for a moment. We've got a sound system problem. I want all of 
you to be able to hear.
    I'm going to ask that we take one of the microphones there 
and you pass that around, and we will shut the portable ones 
off. It seems speaking directly into this might be better for 
all of you. Speak very closely.
    Mr. Pomeroy. I've never heard of the test-drive-a-car 
analogy relative to essentially new law. Here, taxpayers. 
Here's a new law. Let's test drive this one. See how you like 
these requirements. Let us know after you've been living under 
it for a while.
    That is a very different matter than the Administrative 
Practices Act which has its very well defined rules about 
promulgating new requirements on citizens.
    To suggest that you slap one set of rules on folks for 18 
months and see how it goes, if it doesn't go very well, you 
change it around. Obviously that's no way to run a government, 
and I would urge that you reexamine entirely this whole interim 
directive business.
    Now, it's also extraordinarily difficult, within the 
interim directive process, there's no formal opportunity for 
input. There are letters submitted and at this point in time, 
Mr. Chairman, I'd like to enter into the record this document.
    Senator Dorgan. Without objection.
    Mr. Pomeroy. If you'd be so kind, Mr. Cameraman, hand it to 
the panel and just pass it down.
    Cameraman. You pay me well.
    Mr. Pomeroy. There's no requirement for feedback, no give 
and take. Suddenly the new requirements are upon you and 
published in a form without advanced notice that doesn't even 
distinguish the new from the old.
    As my staff tried to tear this apart and try to find out 
what was new and what was old, we really had a very difficult 
time because it's not broken out.
    To me, and I didn't know whether this was just kind of 
confusing or a deliberate attempt by a federal agency to 
obfuscate what they're doing. And I'm kind of inclined to 
believe the latter.
    Now, if you're head of grasslands?
    Ms. Kaiser. Rangelands.
    Mr. Pomeroy. You're head of rangelands?
    Ms. Kaiser. Yes, sir.
    Mr. Pomeroy. Were you aware of the interim directives? 
We've heard that Ms. Kimbell and Mr. Pieper weren't.
    Ms. Kaiser. Yes, I was aware of them.
    Mr. Pomeroy. Had you read them and understood the 
application of them?
    Ms. Kaiser. I'd read them many times.
    Mr. Pomeroy. I'm surprised to know that there seemed to be 
a breakdown in communication, Ms. Kaiser, between Washington 
and the region between Washington and North Dakota within the 
Agency.
    I will also tell you something I told Ms. Kimbell and Mr. 
Pieper earlier, and that is congressional delegation is 
routinely by agencies involved in the information loop as major 
issues are considered.
    So you at your desk had considered these many times, had 
read them many times and thoroughly considered them. Did you 
think about communicating with those that would be asked to 
implement those rules; your regional and state staff?
    Did you think about communicating with congressional 
delegation? Did you think about most importantly communicating 
with the people that were about to have to live under them?
    Ms. Kaiser. Yes, sir. We worked very closely with the 
regional program leads across the Nation. They coordinated with 
their internal and external audiences and we were----
    Mr. Pomeroy. On this particular one relative to grasslands, 
we've just heard the same Agency give a very different story.
    Ms. Kimbell says she didn't know of it before it came down, 
and you say you worked very closely with--throughout the agency 
to make sure the public was thoroughly involved.
    Ms. Kaiser. We worked very closely internally with our 
folks to help----
    Mr. Pomeroy. Did you work with the region?
    Ms. Kaiser. Yes, sir.
    Mr. Pomeroy. Ms. Kimbell, were you worked with on these 
interim directives?
    Ms. Kimbell. Yes. I was very aware of these chapters----
    Mr. Pomeroy. How does that square with what you told us a 
few minutes ago----
    Ms. Kimbell. I was not aware of the one line that has been 
removed and of the proposed impacts to leasing as an option----
    Mr. Pomeroy. Ms. Kimbell, you describe this almost as a 
typo. I mean, this is a very substantive change. It's not just 
one line. It doesn't actually matter how many words it takes.
    If you wipe out decades long practice of lease transfer, it 
could be several pages or one line. It doesn't matter. The 
thing was, it was very deliberate.
    Are you suggesting it somehow an inadvertent change by the 
Forest Service?
    Ms. Kimbell. I'm suggesting that everyone in this room 
understands how serious a change that could have been, and that 
no one intended that that change actually--no one in this room 
proposed it and that somewhere in the process of finalizing 
this package there was a word changed, a word left out.
    Yes, I'm suggesting that it was an inadvertent edit that 
was made that totally changed the meaning to beyond something 
that the Chief of the Forest Service ever intended.
    Mr. Pomeroy. Ms. Kimbell, I will just tell you I don't 
believe you.
    Ms. Kimbell. I'm sorry.
    Mr. Pomeroy. Ms. Kaiser, did you have an awareness of the 
lease transfer change?
    Ms. Kaiser. There was never any intent on our part to 
convey any kind of policy that would eliminate leasing. That 
was never a proposal.
    Senator Dorgan. If I might, Earl. That was not his--nobody 
made that point about eliminating. The fact is it could not--
Earl put it well.
    This could not have been a typo or some inadvertent missing 
a word here because the minute it was out, there were people in 
the Forest Service defending it. There were people defending 
it.
    Why? For the very reason Mr. Pieper described. Well, 
leasing really that's to get young people in and it wasn't 
working so well, so let's change it. So this could not have 
been some inadvertent word in or out.
    It was, in my judgment, somebody decided to change the 
policy, Ms. Kimbell. You disagree with that?
    Ms. Kimbell. Yes, I do.
    Senator Dorgan. Then why were they defending it?
    Ms. Kimbell. In any agency, in any organization with 35,000 
people, you will find a range of opinions, and you'll probably 
find an opinion to support any different position.
    Yes, it's been the Agency's position, it has been the Chief 
of the Forest Service's position to exercise his option in the 
regulation to allow leasing of livestock in North Dakota.
    It's not a practice that we have throughout the National 
Forest System and not throughout the National Grasslands 
portion of the National Forest System. It is a practice that we 
have here in North Dakota.
    Mr. Pomeroy. Ms. Kimbell, when your people went out to 
discuss this with the Grazing Associations, they described its 
full impact. That means that at some point, either you or Mr. 
Pieper understood the impact of the words as published.
    Now, if this is a huge surprise, an inadvertent mistake 
with a dramatically different impact, we're all shocked about 
it, I don't then send out my personnel to try and enforce it. 
But that's what the Forest Service did.
    It's totally inconsistent with your suggestion that this is 
an inadvertent slip. You were trying to enforce it.
    Now, explain that one, Mr. Pieper.
    Mr. Pieper. I don't believe I was trying to enforce it. 
When I got the language, when I read it, I knew we would 
probably be sitting here today. Probably that's the last thing 
I wanted to do.
    I worked diligently to change the language. There was a 
communication gap in the Forest Service. That's what we're 
saying. My people worked with Grazing Association members and 
presidents. I did, too.
    I came to the conclusion that we have to keep leasing in 
North Dakota. No doubt about that. That word obviously didn't 
get in to these changes at the Washington office. There was a 
gap in communications.
    Mr. Pomeroy. I will look forward to pursuing this with the 
personnel in the Washington office, as I know Senator Dorgan 
and Senator Conrad will.
    There are a lot of other features in this whole matter 
though that brings a lot of concerns. I'll read you the 
sentence. It doesn't appear to be an inadvertent sentence.
    It says, ``If the Forest Service discerns a trend from 
Grazing Associated issue to determine grazing permits in favor 
of forest service termed grazing permits, Forest Service should 
reevaluate whether continuing grazing agreement represents an 
effective and efficient method of administering livestock 
grazing unaffected lands.''
    Now, that non-consequential language, perhaps in your mind, 
to Grazing Associations say there's an attempt to change 
issuance of permits for Grazing Associations, a long practice 
here, to the Forest Service.
    There is a definition of animal unit. ``One mature cow or 
the equivalent based on average forest consumption of 26 pounds 
of dry matter per day.''
    What are the--does this contemplate cow/calf or does it 
totally change the measure of animal unit, which is very basic 
and a substantive matter relative to all this?
    There's the matter Senator Dorgan referenced earlier about 
access on private land. Now we have part of this withdrawn, and 
part of it implemented and it is a mangled mess.
    What I believe, I want to echo Senator Dorgan's suggestion, 
strong suggestion to the Forest Service that all of this be 
pulled back. I mean, honestly sitting here, I don't know what's 
in. I don't know what's out. I don't know how we proceed given 
the considerable disarray the Forest Service now finds itself 
in relative to all this without pulling it all back, being very 
guarded about what is advanced by way of interim directive and 
doing whatever else you need to do open and above board so that 
we have a chance to talk to you while you're suggesting this.
    Thank you, Mr. Chairman, for allowing me to participate.
    Senator Dorgan. Congressman Pomeroy, thank you. Just one 
more question and then I want to get to the next panel.
    Mr. Pieper, what you just said leads me to even better 
understand that this was not a mistake. You said that you 
worked diligently to change it. I assume what you mean by that, 
you previously said you hadn't read the 16 chapters prior to 
their----
    Mr. Pieper. I read the draft chapters.
    Senator Dorgan. So in the draft chapters does that include 
the leasing provision?
    Mr. Pieper. No, it didn't.
    Senator Dorgan. So what were you working diligently to 
change?
    Mr. Pieper. That language, sir.
    Senator Dorgan. When?
    Mr. Pieper. After the final.
    Senator Dorgan. After it was published?
    Mr. Pieper. Yes.
    Senator Dorgan. All right. You know, I mean, at best this 
is sloppy work. It's bad policy I think slipped under a door 
someplace, and I think--I'm not surprised that ranchers came to 
us, Grazing Associations came to us upset with this.
    I mean, there has to be consultation and there has not 
been. And I've been involved in the Forest Service issues for a 
long, long time through a good many chiefs, and there's plenty 
of reasons to criticize a big bureaucracy.
    The Forest Service is a big old bureaucracy, but what I 
hear this morning bothers me a lot because I think there's 
something--I think, Ms. Kaiser, you said this is a big agency 
or maybe, Ms. Kimbell, you said this is a big agency 
different--a lot of people have different views, different 
opinions. Yeah, I know.
    I also know there are some people there that don't think--
they don't like grazing on the grasslands. They think ranchers 
are a nuisance, a pain. They don't want to deal with Grazing 
Associations. They'd like none of this. They'd just like to go 
look at some trees and deal with some procedures and policies 
on trees.
    The fact is this is an important part of this State. A $600 
million part of our economy. Ranching is important, and I worry 
that there are very few people that understand where this land 
comes from.
    These grasslands are different than most lands supervised 
by the Forest Service. Most lands supervised by the Forest 
Service have always been in public hands, never in private 
hands.
    These lands, the grasslands of North Dakota largely were 
taken into public hands, owned by the Federal Government back 
in the Great Depression, and part of the Bankhead-Jones Act 
that accomplished that anticipated that they would still remain 
a part of agriculture in this State.
    Yes, it's also multiple use, but a part of agriculture. 
Otherwise there would have been a huge problem here, because 
it's a significant part of our economy.
    The very least we can expect from the managing Agency is 
good management and a partnership of good consultation. That 
certainly has not been the case here.
    So let me just leave it with this thought: This is going to 
change. I mean, you say you've removed the offending sentence, 
but I can tell you this is going to change, because those of us 
in Congress that have the ability, whether it's an 
appropriations committee or other ways, to get the attention of 
the Chief of the Forest Service if he's not collaborating 
somewhere, in the country, we will get his attention. And we'll 
get the right way, and we will get these policies straight.
    But in the meantime, I think all of you, the three of you 
and the Chief and everybody in the Forest Service, have a 
responsibility not to do this sort of thing.
    If you need to make some changes from time to time that are 
thoughtful and sensible and well grounded and common sense, 
then meet with the ranchers and meet with the Grazing 
Associations. They understand common sense. This is where 
common sense originates. So meet with them and talk through 
these things.
    But surprising them and us with bad policy is hardly an 
appropriate way for a Federal agency to be a good neighbor. So 
if you have additional comments, I will be happy to entertain 
them before we call the next set of witnesses.
    Ms. Kimbell. Senator and Representative Pomeroy, we 
appreciate the opportunity to be with you today.
    Senator Dorgan. Oh, you don't appreciate this.
    Ms. Kimbell. We do.
    Senator Dorgan. No, no. I know better than that. But you're 
here because we asked you to be here.
    Ms. Kimbell. We are here because you asked us to be here, 
but we're also very proud to be able to play a role in the 
management of the grasslands, working with the Grazing 
Associations in partnership.
    The Chief of the Forest Service would have been here, the 
Under Secretary would have been here, but they are attending a 
White House conference that's been planned for many, many 
months being held this week in St. Louis, Missouri.
    It's all of Government. It's not just with the U.S. Forest 
Service, but it's with all of Government and with many, many 
external partners and organizations, interest organizations 
from around the country. Otherwise they both would have chosen 
to be here.
    We look forward to working with the grazing associations, 
working with individual permittees to further refine the 
language that appeared, and so that when it is published and 
final, we do have a working document that can work for all of 
us and that recognizes all the changes that have occurred since 
1985 and recognize the need for language that we all understand 
and that we can all live with.
    Senator Dorgan. Ms. Kimbell, are you able to make the 
commitment today on behalf of the Chief of the Forest Service 
that going forward you intend to sit down and consult with, 
meet with, discuss with the grazing associations and the 
ranchers all of the issues that you're considering?
    Ms. Kimbell. Absolutely.
    Senator Dorgan. Thank you for being here.
    Mr. Pomeroy. One final question, Senator Dorgan, and that 
involves the status of this whole packet, the 16 chapters. Some 
of which have now been withdrawn, but you say some haven't. I 
honestly don't know where we're at.
    The Senator and I have asked you to pull them all back and 
move them forward after a very thorough deliberation of what is 
appropriate interim directive and what is appropriate 
administrative practice material.
    Ms. Kaiser or Ms. Kimbell, I want your response to our 
request.
    Ms. Kimbell. I think we'll need to consult with the Chief, 
in that many of those chapters are as I described earlier. 
They're clarifications that incorporate new statute and case 
law, and it's necessary to have some clarification to the field 
and a----
    Mr. Pomeroy. The issue is it's intermingled. We have seen 
the intermingling of case law changes. We've seen the 
intermingling of implementation of new statute, and we've seen 
the implementation of personal whim. It's all intermingled and 
we don't know what is what, nor do I know at this point in time 
what's in and what's out.
    Now, how do you suggest clarifying the existing state of 
affairs, other than pulling them all back moving forward? Not 
to pull them all back and throw them all away. I understood 
there's things in there that need to move forward.
    Ms. Kimbell. We will absolutely provide both your offices 
and the other Senator's office with clarification on all those 
pieces.
    For any members of the public who are interested, there is 
a piece of paper in the back on the table with the website, the 
correct website address for being able--for those who are 
computer savvy who would like to look at it that way. They can 
review those pieces specifically, but we will have that 
information to your office.
    Mr. Pomeroy. I will also mail out anything I receive to 
those that have signed in attendance here. But I want by way of 
drafting practice the new delineated from the former language 
so that we can read the thing intelligibly.
    It does not make 16 pages--16 chapters of volume without 
what's new and what's not. I don't know what the changes are. I 
don't know where we're at. I want that delineated also in what 
you'll give us.
    Ms. Kimbell. I believe we can do that.
    Mr. Pomeroy. Thank you.
    Ms. Kimbell. Thank you.
    Senator Dorgan. As I excuse you, let me ask that you tell 
the Forest Service Chief, and I will do so as well, that we 
would like for him to submit to the subcommittee by a week from 
this Friday, which would give him a week and a half, a written 
response to our request that the batch of chapters in that 
handbook be rescinded until we understand what is new, what is 
old, what are the impacts, what will the effect be.
    I would like a formal response from the Chief of whether he 
is intending to do that or not based on our request. Thank you 
very much.
    Next we will call Randall Mosser, President of the North 
Dakota Grazing Association; Keith Winter, President of McKenzie 
County Grazing Association; Tony Anderson, President of the 
Sheyenne Valley Grazing Association; Joe Milton, Junior and 
Tony Huseth, two ranchers, who will share their personal 
stories with us.
    We thank all of you for being here. I regret that this is 
lasting as long as it is, but it's an important issue, and I 
know you have the patience to wait and hang in here and get the 
full story.
    Your contribution to this is to give us your perspective 
about what has happened, and what impact it might have on our 
state, ranchers, Grazing Associations, and we appreciate your 
being here.
    Can I call you Randy?
    Mr. Mosser. Yeah.
    Senator Dorgan. Yeah, Randy. Randy Mosser. Thank you for 
being here. President of the North Dakota Grazing Association. 
Why don't you proceed.

STATEMENT OF RANDALL MOSSER, PRESIDENT, NORTH DAKOTA 
            GRAZING ASSOCIATION
    Mr. Mosser. Thank you. Yes, I am President of the North 
Dakota Grazing Association. We represent all grazing 
associations in North Dakota and the Grand River Grazing 
Association in South Dakota.
    I'm accompanied by Keith Winter, President of McKenzie 
County Grazing Association, and Todd Anderson, President of the 
Sheyenne Valley Grazing Association.
    We also have Doug Pope from the Little Missouri Grazing 
Associations. A lot of the stuff that you covered this morning 
was also part of my testimony. Did you want me to repeat all 
that?
    Senator Dorgan. Just summarize it. I read your testimony 
prior to this hearing, and it was very helpful. But you all 
feel free to summarize in an extemporaneous way, and you don't 
need to go through it all, but make the important points.
    Mr. Mosser. Well, the one thing that kind of disturbed me a 
little bit is a key thing. They're not seeing new operators 
coming in and buying the places.
    So I had our secretary pull our minutes for the last 15 
years, and of the 165 committees that we've had, the ranches 
that we have in our Grazing Associations, 66 of them have 
changed hands in the last 15 years.
    That seems to me that there is being a turnover taking 
place.
    Senator Dorgan. In response to your question by the way, 
your statements will all be made a permanent part of the 
Committee record, as will the statements from the Forest 
Service.
    Mr. Mosser. I think another thing that really disturbs us 
is where they can create new base property. That base property 
was the original property that the permit was based on in 1937, 
and the number of livestock that you could run was the number 
you ran 7 years prior to 1937. That's how big of a permit you 
got.
    But by being allowed to create new base property, you can 
take the most valuable portion of your ranch, sell it off and 
just buy some cheap land over on the side. It takes away the 
historical impact of the ranch; the intent that was originally 
made.
    Another thing that the Forest Service wanted to have is us 
supply all of our records to them unredacted and could copy 
them. Well, as far as the McKenzie Grazing Association and the 
Medora Grazing Association, we have a settlement agreement with 
them from a Federal District Court. We think that that should 
be honored.
    You also mentioned the new direct permitting requirements. 
We also note concern with new grazing agreement requirements, 
where it could possibly--you know, the grazing associations 
were there first. We did a lot of the maintenance work, a lot 
of the fixing up, a lot of getting started, getting grasslands 
back into shape, and we think we should have a right to be able 
to carry on doing that business in a partnership way with the 
Forest Service.
    The U.S. Forest Service entry on private land really has us 
disturbed because we feel that that's the Grazing Associations' 
job. Also for us to administer the lands we lease, the State 
school lands, the private lands that are out there. That was 
the reason that the grazing associations were set up was to 
handle those lands that were non-Forest Service lands.
    Also the Forest Service ability to be able to come onto 
private land and require range improvements on private land. To 
us, that's just a conservation easement.

                           PREPARED STATEMENT

    I guess that kind of sums it up a little bit, but we also 
ask that you help us in requiring the Forest Service to 
withdraw all of this stuff. We don't think any of this stuff, 
or most of it fits the way we should have to operate.
    With that I thank you very much.
    [The statement follows:]

         Prepared Statement of Randall Mosser and Keith Winter

    My name is Randall Mosser. I am President of the North Dakota 
Grazing Association, representing all of the Grazing Associations in 
North Dakota and the Grand River Grazing Association in South Dakota. I 
am accompanied by Keith Winter, President of the McKenzie County 
Grazing Association and Todd Anderson, President of the Sheyenne Valley 
Grazing Association. Little Missouri Grazing Association President, 
Doug Pope contributed and is in agreement with this testimony.
    I would like to thank you and the committee for the opportunity to 
provide testimony on the USFS Handbook Revision. We feel these 
Revisions would have many negative effects in North Dakota and would 
remove many programs that were implemented and proved successful long 
before the U.S. Forest Service assumed administrative responsibility 
for the Land Utilization projects later renamed the National 
Grasslands.
    All of the ranchers on the National Grasslands in North Dakota are 
members of these Grazing Associations because they own or lease ranches 
where all or some of the land was sold to the Federal Government to 
establish the Land Utilization projects during the Great Depression of 
the 1930's. One of the main purposes of the purchase program was to 
establish Grassland agriculture to benefit the local economy and to 
ensure a stable and viable agricultural community. This bold experiment 
succeeded and more than 65 years later stands as a testament to the 
vision of North Dakota local and state policy makers. We have raised 
the issue for many years, as to why the National Grasslands should be 
administered in the same manner as a National Forest. The National 
Forests evolved from a different history, public purpose and are 
forests, not Grasslands.
    There are many issues we have identified in the U.S. Forest Service 
handbook Revisions that concern our associations. Some of these issues 
are as follows:
    National Grasslands Meeting National Forest Regulations.--The 
Forest Service proposes in this handbook revision to make all National 
Forest rules and regulations apply to the National Grasslands. This 
ignores the facts that the National Grasslands are acquired land and 
have evolved through a series of agreements with the federal agencies 
that administered them--with the Forest Service being the latest 
Federal Agency.
    Leasing of Base Property.--The USFS is proposing to prohibit the 
issuance of a grazing permit on federal land if the base property is 
leased. Leasing has always been an intricate part of the management of 
the National Grasslands. It is one of the tools for the present 
generation to hand a ranch down to the next generation. Almost all 
young operators have to lease for a period of years to build equity so 
they can eventually buy a ranch. If the resource is in good condition, 
it should be immaterial if it is leased or owned? There is no factual 
or legal basis to require ownership of base property or livestock. The 
Bureau of Land Management (``BLM'') that administers the majority of 
federal land grazing in the United States does not require ownership of 
either the land or livestock. In 1994, it issued a proposed rule to 
require ownership in order ``to be consistent with Forest Service 
policy.'' The public comments objecting to the change established that 
there was no federal benefit or improved management that would come 
from requiring ownership and BLM quickly dropped the proposed change. 
The Forest Service never addressed the question of why it continues to 
require ownership of land and livestock on National Forests. There are 
a number of reasons that a landowner may decide to lease a ranch 
instead of selling. In some cases, there are family estate issues, 
health reasons, financial problems, labor requirements, as well as tax 
consequences. No law or public policy supports forcing people to sell 
their land and business when it would cause them financial harm. Yet 
these guidelines would do exactly that. Experience over the last 10 
years shows that the Forest Service's stated concern that ranches do 
not change hands is misplaced. Increased regulation of grazing on 
public lands and National Forests initiated in the mid-1990's has 
persuaded or forced an ever increasing percentage of ranchers to sell 
or to subdivide their private land. Instead of a ranch homestead, the 
Colorado, Utah, Montana, Wyoming, and Idaho mountains are now dotted 
with 40-acre ranchettes used as second homes. These private lands are 
now closed to hunting and recreations users and the developments have 
had significant impacts on big game and wildlife, due to increased road 
density and conversion of land from range to home sites. This increased 
regulation has also concentrated federal grazing AUMs in the hands of 
just a few corporations, such as Ted Turner, who owns the largest 
number of federal AUMs. National environmental groups have also 
acquired ranches and rarely graze the federal lands or institute 
projects to improve vegetation and habitat. Neither development has 
benefited the local agricultural community, since the land and business 
is concentrated in the hands of a few and the environmental groups 
claim tax exempt status and do not graze the land. This process is not 
presently happening in North Dakota. The Handbook Revision would allow 
this process to develop.
    Share Livestock Agreements.--This is another tool to assist people 
in getting started in the livestock business. Share livestock 
agreements have been in use since the beginning of the livestock 
industry on both private and federal lands.
    1988 Leasing Agreement with the U.S. Forest Service.--The ND 
Grazing Associations currently have a signed agreement with the U.S. 
Forest Service on the requirements for leasing of base property and 
share livestock agreements since 1988. We have provided you with a copy 
of this document. The Forest Service should have lived up to this 
signed agreement and if they were going to revise it, it should have 
been in consultation with the effected parties.
    Creating New Base Property.--It has always been an association 
requirement for a permittee to own or lease the original base property 
that was established in 1936. The Forest Service is proposing to allow 
a permittee to change base property. This would allow ranchers along 
the Little Missouri River to sell off scenic portions of their ranches 
and buy cheaper land within the vicinity of the boundaries of the 
Association, to become their new base property. The permit would then 
follow the livestock and not the land. Eliminating leasing and allowing 
permit holders to create new base property will encourage what the USFS 
says it doesn't want to happen: it will create ranchettes, hobby farms 
and a lot of small landowners wanting enough land for a second home or 
a gratis mule deer tag.
    Court Settlement Violation.--The Forest Service wants to have all 
records made available to them upon their request, for inspection and 
copying, without any deletions or redactions. As for the McKenzie and 
Medora Grazing Associations, there is a Settlement Agreement made in 
Federal District Court that allows Grazing Associations to redact 
certain information in the records. This proposal is in direct 
violation of a Federal District Court Mediation Settlement.
    New Direct Permit.--The Forest Service Handbook Revision would 
allow Grazing Association permittees to become direct permittees of the 
Forest Service which is in direct conflict with present Grazing 
Agreements and ND State Law. The Association permittee must request, in 
writing, to become a USFS direct permittee, and the Authorizing Officer 
will be the individual who determines if an Association permittee shall 
become a USFS direct permittee. This is just one more provision to 
weaken Association enforcement authority over its permittees and gives 
an uncooperative member a new option.
    North Dakota Century Code Pertaining to Grazing Association Law.--
The Grazing Associations in North Dakota were organized under North 
Dakota State Law, passed in 1936. It allows the Associations to lease 
lands from the Federal government, the State of North Dakota, private 
individuals and other agencies.

New Grazing Agreement Requirements
    1. New Recognition of Grazing Associations.--The Grazing 
Association administered the federal land almost entirely on their own 
from 1937 to the late 1970's. From early 1980's to present we have been 
subjected to an ever increasing bureaucracy of Forest Service policies, 
rules and regulations to comply with. A large number of the early 
contributions to rehabilitating the land can be attributed to the 
Association's efforts, such as water development, fences, and the 
establishment of a carrying capacity to the lands (with preference 
numbers for each ranch based upon the number of head of livestock run 
seven (7) years prior to 1937, the amount of winter feed grown on the 
private lands, and the dependency of privately owned or leased property 
with in the grazing area). Now the Forest Service wants to throw out 
all of these efforts and start over by determining new stocking rates 
on both the federal and private lands, determining what CP Projects are 
needed on both federal and private lands, and even determining if the 
Association should remain in effect.
    Most Grazing Associations were organized in the 1930's and 1940's, 
and each has been given a lease agreement as per State Law. These 
Agreements with the Forest Service have been written for a 10-year 
period. The Associations were to organize and plan for the management 
and use of intermingled blocks of private, State, and Federal lands. If 
our Grazing Agreement expires, are we going to be considered a ``New 
Association'' and have to apply for recognition by the U.S. Forest 
Service Authorizing Officer? By applying for recognition, the 
Authorizing Officer will determine if leasing to the Association is the 
most effective and efficient means of administering grazing on the 
National Grasslands.
    2. U.S. Forest Service Entry on Private Land.--A new provision of 
the Handbook Revision for Grazing Associations is to allow the Forest 
Service entry on Association-controlled lands to determine whether the 
livestock grazing activities provided by Association-issued grazing 
permits are being carried out in conformance with applicable federal 
law, regulations, Forest Service policies and procedures, and the terms 
and conditions of the Grazing Agreements. Association-controlled lands 
are non-federal land, leased, owned or controlled by the Association 
for administration of grazing activities and management purposes. The 
Grazing Associations were created to manage these lands--now the U.S. 
Forest Service wants control over them.
    3. U.S. Forest Service's Ability to Require Conservation Practices 
on Private Land.--This may require the Association to implement 
Conservation Practices on Association-administered lands as necessary 
to obtain proper livestock use and rangeland resource management. 
Association-administered lands are private, State, other agency and 
Non-USFS administered lands. The Forest Service wants control of the 
uses of these lands.
    4. Allotment Management Plans written by only the U.S. Forest 
Service.--The present policy is for the AMP's to be developed jointly 
with the Forest Service and Grazing Association.
    5. Definition Differences in an Animal Unit.--The Forest Service 
definition for an Animal Unit is a 1,000 pound cow without a calf. Our 
present agreement allows for a mature cow with a calf as an animal 
unit.
    6. Forest Service Stocking Rates.--The Forest Service will 
determine the permitted numbers and season of use for livestock on NFS 
lands and assist the association in the determination of permitted 
numbers and season of use for the association controlled lands. This 
has already been done.
    We ask for your help in requiring the U.S. Forest Service to 
withdraw these proposals from consideration in their entirety. The 
Forest Service should issue rules specific to the National Grasslands 
that capture the history and legal criteria unique to the National 
Grasslands in order to preserve the equal partnership model that has 
succeeded so admirably for 65 years.

    Senator Dorgan. Mr. Mosser, thank you very much. Next we'll 
hear from Keith Winter, and Keith is the President of the 
McKenzie County Grazing Associations. Keith.

STATEMENT OF KEITH WINTER, PRESIDENT, McKENZIE COUNTY 
            GRAZING ASSOCIATION
    Mr. Winter. Well, thank you. It's a joint testimony from 
Randy and I. He covered most of the things, but I absolutely 
agree with your statement it's more than one sentence, these 
changes in the deal. We've articulated many of them.
    Senator Dorgan. Would you pull that a little closer to you.
    Mr. Winter. Not all of them. The new grazing agreements 
are, I think there's 25 items, something like that. So it's way 
more than one sentence. I agree with that.
    I have here individual letters from permittees, 
approximately 100 of them, from Little Missouri Grazing 
Association, McKenzie, Medora and Sheyenne, from individual 
ranchers and they articulate it probably better than we do 
here. And we'd like to submit them for the record.
    Senator Dorgan. Without objection.
    [The letters follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Mr. Winter. I'll take any questions as we go along.
    Senator Dorgan. All right. This is not a mistake free zone. 
I have in my list Tony Anderson and that sign says Todd 
Anderson. You help me out.
    Mr. Anderson. It's Todd Anderson.
    Senator Dorgan. Todd Anderson is President of the Sheyenne 
Valley Grazing Association. Todd, thank you very much.
    Why don't you proceed, and why don't you pull that 
microphone over and speak as closely to the microphone as you 
can. Pull it right up next to you.

STATEMENT OF TODD ANDERSON, PRESIDENT, SHEYENNE VALLEY 
            GRAZING ASSOCIATION
    Mr. Anderson. Thank you, again, Senator Dorgan, Congressman 
Pomeroy, for being here.
    My testimony was written while I was sitting at the Ransom 
County Fair watching my daughter brush her calf. What I was 
thinking about was, you know, this is like the fourth 
generation that's been at this fair, and now the Forest Service 
with the leasing--of course they're saying that that's not in 
their language any more, which I have a hard time believing, 
especially considering they still have a 120-day comment 
period.
    They've given us promises before, and a lot of times it's 
not come true. But I'm thinking to myself, there's my 7-year-
old, and you know, this is my life, my heritage, and I can't 
pass that on.
    If they do this, I'm not going to be able to afford to buy 
the base acres. It's a family lease operation, and it's just 
been passed down. And the Forest Service is telling me how to 
operate and do my business, and I don't agree that that's 
right.
    But the other thing that you two both hit on is that the 
Forest Service always stresses to us that it's a joint, 
cooperative agreement.

                           PREPARED STATEMENT

    Congressman Pomeroy, you hit on the issue that in January 
2004 we sent in letters discussing the leasing issue. Again, it 
was just superseded by Forest Service rules that they didn't 
even consider what we had talked about, and they're always 
stressing. So I don't understand the whole cooperative 
agreement at all. With that, I thank you.
    [The statement follows:]

                  Prepared Statement of Todd Anderson

    My name is Todd Anderson. I am the current President of the 
Sheyenne Valley Grazing Association, and I am leasing base property.
    I would like to thank you and the committee for the opportunity to 
testimony in regards to the USFS Directives Chapter 20.
    My current lease agreement is a family lease operation. My dad and 
I have a LLP Partnership. The partnership rents from my father and my 
grandmother. The base property leased from my grandmother was original 
base within the SVGA. Now the USFS directive would require an 89 year 
old woman, living on her farm, to sell her property. The question I ask 
is why?
    The USFS directive, Chapter 20, would require me to purchase this 
land from my grandmother. That isn't the intent of a family operation. 
The intent is to pass the ranching lifestyle on from generation to 
generation. I am currently sitting in the cattle barn at the Ransom 
County Fair. My seven year old daughter is brushing her show calf. Four 
generations have now participated in this fair. The USFS wants this to 
change. Frankly, with land prices at the current rates of $900 an acre 
(pasture land) and $1,500 an acre (good tillable land), there is no way 
I'm going to make that type of financial commitment.
    The USFS with this directive would change my lifestyle, my 
heritage, and the ranching opportunity for my children.
    Again, I would like to thank you for the opportunity to testify.

    Senator Dorgan. Todd, thank you very much.
    Next we have Joe Milton, Jr., who is with us who is a 
rancher and who will share with us his observations.
STATEMENT OF JOE MILTON, JR., RANCHER
    Mr. Milton. Thank you, Senator and Congressman. I too am a 
little confused after I heard the testimony of the Forest 
Service because I came here concerned about the leasing wording 
in there.
    I'm a fourth generation rancher who intends to pass the 
ranch on down to the family and of course--and I am currently 
leasing my land out to a neighboring rancher. If I'm not 
allowed to do that, of course, I won't be able to survive 
economically because that is my source of income, and I 
wouldn't be able to pass my ranch on down if I have to sell it 
to get my income. However, the thing that confuses me a little 
bit is the fact that I see the Forest Service as falling into a 
practice of using theoretical management.
    By that I mean, somebody comes up with a theory that this 
grazing leasing is bad for grazing, and therefore we're going 
to implement that you can't lease any more. That's theoretical, 
and nobody has proven that it really hurts agriculture or the 
grazing of the land to restrict leasing.
    Theoretical management is something that they've used in 
other cases. Let me give you an example, if I may. Somebody 
came up with a theory that the hawks and the eagles were 
sitting in the trees, and they were a danger to the nesting 
birds out in Sheyenne Grasslands.
    So the Forest Service went out in one allotment and cut 
down all the trees. Now this is the Forest Service in charge of 
forest, cutting down all the trees, the standing dead timber 
and also the live timber, with the idea that it was going to 
restrict the predators from disturbing the nesting birds.
    Well, we all know that the predators do their hunting when 
they're soaring in the air, when they're flying. So they went 
over and arrested another argument, they can still hunt in that 
area that they cleared off.
    That's theoretical management, and I see this happening 
time and time again. It really disturbs me as a landowner to 
know that we are going to have to implement theory practices, 
rather than scientifically proven practices.

                           PREPARED STATEMENT

    So I am confused just as you are about this and it's very 
disturbing. I think if you need any examples of other theory 
management, I do have several. But with that, I'm going to just 
thank you for the opportunity to be here and hope that you'll 
be able to straighten out our confusion.
    [The statement follows:]

                 Prepared Statement of Joe Milton, Jr.

    Hon. Senator Byron Dorgan, Sir: As a four generation landowner in 
Richland County with a ranch with base property in the Sheyenne 
National Grasslands, I am concerned with the new Forest Service grazing 
agreement for the Sheyenne Grasslands.
    As I have indicated, I am the 4th generation living on this 560 
acre ranch. Due to age and health reasons, I have been leasing my ranch 
headquarters to a neighboring rancher who utilizes the 250 head permit. 
This allows me the income I need, and I still can retain ownership of 
the land which I intend to pass on to my children.
    If the new grazing agreement will not allow leasing except to 
family members, it would not allow me to own the land without oozing 
the preference permit which is attached to the base property. As a 
result, the value of the ranch suffers, and I lose needed income. My 
family live in towns and choose not to ranch: which leaves leasing as 
my best option. Changing a policy that has been in effect for many 
years, and which has proved beneficial to many local land owners, would 
create hardship and loss.
    Since leasing is a general practice in business, it would seem to 
be quite discriminatory to not allow ranchers to lease their land to 
someone. After all, we can lease tractors, pickups, machinery, autos, 
apartments, business sites, and the list goes on . I believe that 
Government agencies lease building sites and other things for their 
use: and now the Forest Service is not going to allow landowners the 
freedom to lease their ranches. This is very disturbing!
    It is my hope that you as a ranking Senator will be able to bring a 
change to the proposed agreement that would allow continued leasing of 
ranches on National Grasslands.

    Senator Dorgan. Mr. Milton, thank you very much.
    Finally, we will hear from Tony Huseth. And, Tony, I 
believe you have some testimony.
    How old are you? The reason I ask is you look younger than 
most of those of us in the room.
    Mr. Huseth. Twenty-nine years old.
    Senator Dorgan. I have read your testimony as well. You 
seem to me to be exactly what this is all about, what these 
policies are all about. North Dakota State University graduate, 
come back, want to ranch. So why don't you proceed.
STATEMENT OF TONY HUSETH, RANCHER
    Mr. Huseth. Welcome today. I'm glad to see that you guys 
could come and take your time to address a topic of such 
magnitude.
    I'd also like to welcome the Forest Service for coming as 
well and my fellow grazing associations members. It's great to 
see a crowd here of this magnitude because like I said, this is 
a very important issue.
    I'm here today to bring to light the hardships facing me, 
as well as other permittees, if the elimination of leasing as 
pertained to the grazing permits on the North Dakota National 
Grasslands goes into effect.
    My name is Tony Huseth. I'm a rancher on the Sheyenne 
National Grasslands. I'm representing Sheyenne Valley Grazing 
Association, all young ranchers and all those involved on North 
Dakota Federal Grasslands.
    Like I said, I'm 29 years old. I was born and raised on the 
Sheyenne National Grasslands. My entire life has involved the 
Sheyenne National Grasslands in some fashion. From growing up 
as a kid, working and learning the ways of life in ranching 
until present where I still work hard everyday and continue to 
learn and make an honest living.
    I am a graduate of North Dakota State University where I 
studied for and received a Bachelors' Degree in agricultural 
economics. I took many classes that prepared me for the job I 
am doing such as ag marketing classes, animal science classes, 
plant science classes, as well as a few ranch science classes. 
This was further education towards doing what I love to do and 
what I thought was an honest and respectable living.
    The elimination of leasing on the Sheyenne National 
Grasslands would not only allow me as a young rancher to secure 
a future doing what I know and love, eliminating leasing would 
be a direct negative towards the prosperity of young ranchers 
or any of the 70 percent of Sheyenne Valley Grazing 
Associations permittees that are affected some way by leasing.
    Lease elimination is not only a local problem, but a 
problem on our State level. One of the big issues in North 
Dakota's past, present and future is loss of young people in 
the State due to outward migration.
    When I finished college, leasing got my foot in the door. 
Without this tool, I would have been forced into another 
career. I was lucky a lease opportunity was available that fit 
perfectly into my situation.
    By eliminating leasing, I, nor any young rancher with the 
desire to keep the North Dakota tradition of ranching alive, 
would be able to use the great resource of the National 
Grasslands as a tool in jump starting our dream.
    North Dakota is a great place to start and raise a family, 
but lease elimination takes this opportunity off the table for 
me. This would force me to change careers and run the risk of 
leaving North Dakota.
    By eliminating leasing on the National Grasslands, we would 
definitely eliminate jobs in this state. I think everyone here 
knows enough about the ins and outs about how leasing presently 
works on the National Grasslands, so I won't go into a great 
deal about its use.
    The U.S. Forest Service and ranchers on the National 
Grasslands have, as long as I can remember, worked together to 
achieve certain goals. Although these goals may not always be 
the same, they are still goals and need team work to be 
achieved.
    Each side makes sacrifices at some point in time, but at 
the end of day we are all still forging forward. Maybe our goal 
is to improve cow herd health, increase herd productivity, 
improve financial net worth or flat out improve family well 
being.
    On the other hand, maybe our goal is to decrease leafy 
spurge populations, increase endangered species populations or 
just improve overall grassland health.
    No matter how you look at it, all these things need 
compromise to be achieved side by side. This type of compromise 
has been working since the National Grasslands exchanged 
ownership from the ranchers to the U.S. Government.
    By eliminating leasing, this team work relationship is put 
into jeopardy. Eliminating leasing takes a part of the equation 
and slowly squeezes it out. I am just one of the many players 
that run the risk of being squeezed out if this happens.
    I currently lease roughly 480 acres of base property from 
two separate retired ranchers. This 480 acres carries with it 
two different grazing permits.
    My permits are for 82 and 56 head of cattle on the Sheyenne 
National Grasslands. I currently own 125 head of cattle on an 
already reduced grazing season, all of which are run on 
Sheyenne National Grassland allotments.
    I also work hand in hand with my family operation. My 
father also ranches on the Sheyenne National Grasslands. My 
father has his own permit and does not lease, but his operation 
is not large enough to sustain both of us together. So I took 
the opportunity of leasing more land to acquire another permit 
when the chance arose.
    My obtaining these lease permits allowed my father and I to 
increase operation, productivity and efficiency while loaning 
many of the high costs involved in agriculture today.
    As you can see already, the elimination of leasing is a 
financial burden to me for various reasons, as it will be to 
all others who lease base property. By not leasing, I am forced 
to purchase land on which to pasture my cattle or flat out quit 
ranching completely.
    This becomes a problem due to the high land costs as well 
as the lack of obtainable pasture land in the immediate area. I 
am at no financial situation yet to purchase the amount of land 
needed to ranch the same cattle numbers I am currently 
ranching. And there is by no means room for both my father and 
I to continue jointly under one permit.
    Leasing allows me to build my operation and equity to a 
point that is feasible for investments of this magnitude 
without sticking my neck out so far so soon.
    Along with the land costs, some machine costs, cattle 
expenses, interest rates, mortgage costs, etcetera, these are 
costs that are presently spread over my operation as well as my 
family's operation while still holding on to the increased 
income generated by the cattle I run on my lease grazing 
permit, and not having to try to withstand these costs as a 
separate entity.
    Lease elimination would force these costs to both sides 
independently, therefore causing a financial burden for me, as 
well as a permittee who is not involved in leasing; being my 
father.
    I have been ranching full-time for 7 years. The time frame 
I have been given for lease elimination is 7 years. It is very 
hard to believe that at 29 years old the lifetime of my career 
choice is half over.
    I hope what I have said here today is taken seriously by 
everyone involved because it is a very, very important topic. 
At the end of the day, this is a topic that does not involve 
cows, birds, plants, etcetera. It involves people.
    How many people can sit in a room as we all are today and 
honestly give testimony that they love what they do for a 
living and would fight this hard, this long to hold on to it?

                           PREPARED STATEMENT

    By eliminating leasing on the National Grasslands, myself 
and many others will lose our ability to drive forward and lose 
the desire that we have, know and the love for our whole lives. 
Thank you.
    [The statement follows:]

                   Prepared Statement of Tony Huseth

    Hello Senator Dorgan and staff, Forest Service representatives, and 
my fellow grazing association members. Thank you for being here and I 
hope the information I am giving to you today is taken into great 
consideration because it affects the lives of many hard working North 
Dakotans. I am here today to bring to light the hardship facing me, as 
well as other permitters, if the elimination of leasing, as pertained 
to grazing permits, on the Sheyenne National Grasslands goes into 
effect.
    My name is Tony Huseth. I am a rancher on the Sheyenne National 
Grasslands (SNG). I am representing the Sheyenne Valley Grazing 
Association (SVGA), all young ranchers and all those involved in 
leasing on North Dakota Federal Grasslands. I am 29 years old. I was 
born and raised on the SNG. My entire life has involved the SNG in some 
fashion, from growing up as a kid working and learning the ways of life 
and ranching, until present where I still work hard everyday and 
continue to learn and make an honest living. I am a graduate of North 
Dakota State University, where I studied for and received a Bachelors 
degree in Agricultural Economics. I took many classes that prepared me 
for the job I am doing such as agricultural marketing classes, animal 
science classes, as well as plant science classes. This was further 
education towards doing what I loved to do and what I thought was an 
honest and respectable living. The elimination of leasing on the SNG 
would not allow me as a young rancher to secure a future doing what I 
love and know. Eliminating leasing would be a direct negative towards 
the prosperity of young ranchers, or any of the 70 percent of SVGA 
permitters that are affected by leasing, on the SNG. Lease elimination 
also popes a problem on the state level. One of the big issues in North 
Dakota's past, present, and future is loss of young people in the state 
due to outward migration. By eliminating leasing, I nor any other young 
rancher with the desire to keep a North Dakota tradition of ranching 
alive, would be able to use the great resource of the SNG as a tool in 
jump starting their dream. This would force me to change careers and 
run the risk of leaving North Dakota. By eliminating leasing on the 
SNG, we would be elimination jobs in this state.
    I think everyone here knows enough about the ins and outs of 
leasing presently works on the SNG so I won't go into great detail on 
its use. The U.S. Forest Service and ranchers on the SNG have, as long 
as I can remember, worked together to achieve certain goals. Although 
these goals may not always be the same they are still goals and still 
need teamwork to achieved. Each side makes sacrifices at some point in 
time, but at the end of the day we are still forging forward. Maybe our 
goal is to improve cow herd health, increase herd productivity, improve 
financial net worth or improve family well being. Maybe our goal is to 
decrease leafy spurge population, increase endangered species 
populations or just improving overall grassland health. No matter how 
you look at it all these things need compromise to be achieved side by 
side. This type of compromise has been working since the SNG exchanged 
ownership from ranchers to the U.S. Government. By eliminating leasing 
this teamwork relationship is put into jeopardy. Eliminating leasing 
takes a part of the equation and slowly squeezes it out. I am just one 
of the many players that run the risk of being squeezed out by this 
happening.
    I currently lease 480 acres of base property from two separate 
retired ranchers. This 480 acres carries with it two different grazing 
permits. My permits are for 82 and 56 head of cattle on the SNG. I 
currently own 125 head of cattle, on an already reduced grazing season, 
all of which are run in SNG allotments. I also work hand in hand with 
my family operation. My father also ranches on the SNG. My father has 
his own permit, but it is not large enough to sustain both of us 
together, so I took thee opportunity of leasing more land to acquire 
another permit when the chance arose. By obtaining the other leased 
permits it allowed my father and I to increase operation productivity 
and efficiency while lowering many of the high costs involved in 
agriculture today. As you can see already the elimination of leasing is 
a financial burden to me for various reasons as it will be to all 
others who lease base property.
    By not leasing, I am forced to purchase land on which to pasture my 
cattle or flat out quit ranching completely. This becomes a problem due 
to the high land costs as well as the lack of obtainable pasture land 
in the immediate area. I am in no financial situation yet to purchase 
the amount of land needed to ranch the same cattle numbers I am 
currently ranching, and there is by no means room for both my father 
and I to continue jointly under one permit. Leasing allows me to build 
my operation and equity to a point that is feasible for investments of 
this magnitude without sticking my neck out so far so soon. Along with 
land costs come machine costs, cattle expenses, interest rates, 
mortgage costs, etc. These are costs that are presently spread over my 
operation as well as my family's operation while still holding on to 
the increased income generated by the cattle I run on my leased grazing 
permit, and not having to try to withstand these costs as separate 
entities. Lease elimination would force these costs to both sides 
independently, therefore causing a financial burden for me as well as a 
permitter who is not involved in leasing (my father). I have been 
ranching full time for seven years. The time frame I have been given 
for lease elimination is seven years. It is hard to believe that the 
lifetime of my career choice is half over.
    I hope what I have said here today is taken seriously by everyone 
involved, because it is a very important topic. At the end of the day 
this is a topic that doesn't involve cows, birds, plants, etc. It 
involves people. How many people can sit in a room as we are today and 
honestly give testimony that they love what they do for a living and 
would fight this hard and this long to hold on to it. By eliminating 
leasing on the SNG, myself and many others will lose our ability to 
drive forward and lose the desire that we have known and loved our 
whole lives.
    Thany you.

    Senator Dorgan. Tony, thank you very much for your 
comments.
    I'd like to ask a question before we proceed further. How 
many in this room are from an agricultural background; farming, 
ranching? Let me see some hands. Nearly everyone.
    What I'd like to do, and I'd like to depart just for a 
moment--and this is normally not what we would do in a formal 
hearing. But I want to ask before we ask questions of this 
panel--which will be our final duty and opportunity.
    I want to ask if there are others in the room that would 
wish to stand up and make any comments, brief. Tell me your 
name.
    We'll spend a few minutes doing that if there are some of 
you that have come really feel like you'd really like to make a 
comments, give us your name as you do, and. We have a recorder 
for this hearing.
    If you then wish to send us any written comments, we will 
attach that to the name that you've given us and make it a part 
of the official record.
    So just for a few minutes if there's anyone here that 
wishes to stand up and say a few words, we're going to limit it 
a bit, but I do want to give anyone here who won't be able to 
sleep tonight if you don't have an opportunity to say a few 
words, I want you to have that opportunity.
    Anybody here that wants to do that? Yes, sir. Would you 
like to step to the microphone there.
    Mr. Plumber. Yes. Is this too loud?
    Senator Dorgan. No, it's just fine. Your name?
    Mr. Plumber. Doug Plumber. My family has been involved in 
the grasslands and ranching since 1921, and we've been involved 
in the Grazing Associations, Little Missouri primarily.
    We got a fourth and fifth generation people on the ranch. 
However, we had usage of the grasslands and had high production 
into the 1960s. But in the 1960s things started to change, and 
what we've laid out today is one of the problems. It isn't just 
leasing.
    We've had problems with them trying to close down the 
section line roads since the 1962 Memorandum that said the 
Forest Service could shut down section line roads in North 
Dakota. And they've been trying to implement that since 1962. 
That's 40 years. And this is in direct violation of the law.
    I'm a land surveyor so I kind of know a little bit what I'm 
talking about. These things continue on. They continually doing 
this. Now they're trying to come in and get adverse possession 
rights for access on private land.
    This kind of stuff has got to cease. In our democracy, when 
people continue violate the law, they should either be 
prosecuted or fired or both.
    With that, I'll be quiet because I think you folks have 
covered it pretty well.
    Senator Dorgan. All right. Thank you.
    Ma'am, did you wish to speak or were you pointing at 
someone else?
    Audience Member. I got cold feet.
    Senator Dorgan. You got cold feet. Yes.
    Mr. Leland. Thank you, Senator and Representative for this 
opportunity.
    I didn't realize that we would have an opportunity to make 
comments, but I'm Melvin Leland. I'm President of the North 
Dakota Stock Association, and we are very strong supporters of 
the Grazing Associations.
    So in the interest of time, I would like to request that we 
send a written report of our statement in to you.
    Senator Dorgan. You're welcome to leave it with us today 
and it will be a part of the hearing statement. Melvin, we 
thank you very much.
    Yes, sir.
    Mr. Hall. My name is Monte Hall.
    Senator Dorgan. I know you. Let's keep it to 20 minutes.
    Mr. Hall. I'll do less.
    Senator Dorgan. I'm just kidding.
    Mr. Hall. I run cattle in the Sheyenne Grazing Association, 
plus I'm on the Weed Board for Ransom County.
    But I will say this straight out. If it wasn't for the two 
counties, Richland County, Ransom County, going after you to 
help us to take care of this--I think the Forest Service is 
very poor at taking care of their land. If it wasn't for the 
ranchers out there taking care of it, we would have one hell of 
a mess out there.
    This is what I wanted to say. We've been fighting with the 
Forest Service on this thing all the time, and the other thing 
is that ah--well, I lost my thought. I'm nervous in front of 
Byron.
    Senator Dorgan. Very unlike you, I might say, to lose your 
thought.
    Let's just point out that while this hearing is not about 
weeds and leafy spurge, I brought a leafy spurge plant to a 
committee hearing one day. Senator Conrad Burns and I were 
holding this hearing, and I just brought a big old leafy spurge 
and put it right up on the front of the desk so that the Forest 
Service was testifying.
    I said I wanted them to see what a leafy spurge looks like 
because they're not controlling it, and put some money in so 
that they can start--require them to start controlling weeds.
    Part of being a good neighbor is to control your weeds, and 
the Forest Service has a lot to learn there as well. Although 
they made some progress in the last year.
    Mr. Hall. The thing is what I was going to say, if you 
eliminate what the Forest Service wants to do, we're going to 
lose our Grazing Associations. Then who is going to take care 
of the land? It's the ranches been out there taking care of the 
wells, the fences and everything else. They couldn't find any 
better partners than the ranchers out here.
    To me, it seems the Forest Service stays up all night 
thinking what's the next thing they can do to the ranchers. 
It's the roads. It's this and that. They're always coming up 
with something.
    Senator Dorgan. Thank you, Monte.
    Yes, Ma'am.
    Mrs. Burt. I'm Cecelia Burt and I live in Belfield. A few 
years ago my husband died, and I got to rent out my farm and 
the grazing rights went with it.
    It helped this young man for a long time, and now they want 
me to make out a 7 year lease which, maybe I won't even live 
that long, and I won't really make it out because they said if 
I don't get it in there, then I will lose this ranch or I will 
lose the grazing rights because my lease is coming up this 
fall.
    That I'm so glad that I came and find out what I did today, 
and I thank you guys.
    Senator Dorgan. Well, thank you for coming over. That's a 
lengthy drive. Thank you for your thoughts. Yes, Ma'am.
    Audience Member. I've been listening here to the Forest 
Service people discuss what they knew and didn't know about 
this new policy that went out.
    My question is this: How much of this stuff is written by 
the Association of Forest Service employees for Environmental 
Ethics and for Public Employees for Environmental 
Responsibility?
    Two organizations that are funded by many of the very 
foundations that are doing everything to take and close down 
ranching and the life that we know. There's the Rockefeller 
Foundation, the Mary Renolds-Babcock Foundation, the Town Creek 
Foundation, the Algen Jones Foundation.
    All these foundations are funding these organizations. They 
are employees of the Forest Service, and they are not working 
for the ranchers. Thank you.
    Senator Dorgan. I would suggest you're certainly welcome as 
well to address a letter to Gail Kimbell. I'm sure she'd be 
happy to respond to a particular inquiry.
    Yes, sir.
    Mr. Wisness. Thank you for coming today. I would like to 
send my comments in to you. I understand if I send them into 
you, they can be part of the record?
    Senator Dorgan. Yes. Give us your name.
    Mr. Wisness. Paul Wisness, Hawkins Grain Association. I'll 
be sending them in to you.
    Senator Dorgan. Thank you, Paul.
    Anyone else?
    Mr. Gaebe. Senator Dorgan and Congressman Pomeroy, my name 
is Lance Gaebe. I work for Governor Hoeven on the major 
cultural issues.
    He asked me to come today to this hearing because we, too, 
are very concerned about the petition's rules and were as 
stunned as virtually everybody in the room about the way it 
would go, the directive, and continue to work closely with your 
offices to try and bring them back into check and have the 
appropriate comments made by the Grazing Associations and the 
grazers.
    I appreciate it.
    Senator Dorgan. Thank you very much. And I know the 
Governor did meet with some Grazing Association folks as well.
    If he wishes to submit a statement, we will include that in 
the hearing record. Yes, one more.
    Mr. Schneider. I'm Mike Schneider. I'm County Commissioner 
from Slope County, which is out in the western part of the 
State, and I would just like to address you on the fact of the 
out migration that this would cause if we lose our right to 
lease these lands.
    We're a county of about 700 people now, and we can't afford 
to lose any more people out there. We need everyone we can. We 
need good partners to encourage this, and I thank you for your 
time.
    Senator Dorgan. I believe Slope County is the about the 
size of Rhode Island, the State of Rhode Island?
    Mr. Schneider. We're about 800,000 acres and of that about 
130,000 acres are horse----
    Senator Dorgan. Just fewer than 800 people; is that right?
    Mr. Schneider. Yeah, about 700 now.
    Senator Dorgan. Well, let me thank you, all of you, who 
also contributed your thoughts. I'm going to make a couple of 
comments and questions.
    First of all, Randy and Keith and others, you've worked a 
long while on Forest Service issues and issues that attend to 
the grasslands. We have had management of the grasslands active 
and originally a lead partnership with the Grazing Associations 
for decades and decades; is that not correct?
    Can you give me just a bit of history of when the Grazing 
Associations were formed and how long they've been involved in 
the management of those grasslands and the grazing rights.
    Mr. Mosser. Well, the Medora Grazing Association was formed 
in 1937. Like I said before, the permits were issued depending 
upon the number of livestock that you run 7 years prior to 
1937.
    I think some other associations were formed a little later 
than that. I think McKenzie was the same year.
    Senator Dorgan. It's one thing to disagree with the 
landlord, in this case, the Forest Service. They have legal 
responsibility for management. It's one thing to disagree with 
them. It's another thing to learn what's happening through the 
newspaper or by turning on the television.
    I understand there are some who just don't like the fact 
that the Forest Service or any federal agency is involved in 
any way on these lands, and yet, they are owned by the American 
people. They are in public hands and so there will be 
management of the lands. The question is what kind of 
management.
    We would expect, and I think Congressman Pomeroy's 
questions and my questions to the Forest Service indicated that 
we expect there will be consultation and a partnership here.
    Can any of you describe to me whether that partnership has 
improved in recent years? I described the circumstance with 
Dave that, you know, where we got what is effectively the 
Regional Forester for grasslands here, but what we learned this 
morning is this policy comes from on high, kind of over the 
heads of the local folks, and without consultation.
    Give me your assessment of what kind of consultation has 
existed, maybe Keith and Randy especially, if any.
    Mr. Winter. On this issue, Senator, as you articulated very 
well this morning, there was no consultation. Two years ago we 
sent a letter that Earl put into the record here and we heard 
virtually--we had a meeting with the State presidents at that 
time on this issue, and since then we've heard nothing until us 
and yourself and the Governor's office was sort of stunned by 
the announcement.
    Over the years, yes, it is Federal land. I think we fully 
understand that. We sold the land to them for the multiple use 
purpose.
    We understand that there will be Federal oversight, and I 
think we feel very strongly that our 7 years of the operation 
of these lands has stood the test of the time and we do not 
know if we need a big left-hand turn now.
    Are there problems out there? Sure. There always has been. 
Mother Nature provides many of them. We would like to continue 
working on them in a cooperative way like we always have.
    Senator Dorgan. What's the condition of the grasslands at 
this point in your judgement?
    Mr. Winter. In our judgement within the realms of Mother 
Nature we think in very good shape. Of course the rainfall has 
so much to do with it. It's been a pretty good year out there 
this year, including the Sheyenne Grasslands.
    But that question was answered by the SRT and with the 
scientific review team, and we resubmitted a few questions to 
clarify that issue. Hopefully they are going to be answered.
    Senator Dorgan. Have you gone through the 16 chapters in 
that handbook in some detail, and can you separate the new from 
the old?
    Mr. Winter. We went through Chapter 10 and 20 with great 
detail. Yes, we can, and we have. Some of--the leasing issue 
has been withdrawn, but there are some other issues that they 
left in that--the direct permits, for instance, is still in the 
interim role.
    The other things have been withdrawn, but there are many, 
many issues. We articulated a few of them here, but there are 
many issues.
    Senator Dorgan. What if somebody said, you know, Keith and 
Randy, you're just complainers. This is much ado about nothing; 
this doesn't have any impact. What's your response to that?
    Mr. Winter. I think Tony down here articulated that very 
well.
    Senator Dorgan. In your assessment of the grazing 
associations and the ranchers involved, this will have real 
consequences for who would be able to continue to ranch?
    Mr. Winter. Absolutely.
    Senator Dorgan. It would have real consequences for the 
region and the economy and the communities out there?
    Mr. Winter. Yes.
    Senator Dorgan. That are supported by the ranchers?
    Mr. Winter. Yes, that and the other issues. It's not just 
one issue. It's many issues in this interim directive.
    Senator Dorgan. Let me just finally ask, you didn't respond 
to the question maybe deliberately.
    When we finally set up the equivalent of the Regional 
Forester here for the grasslands and have someone here, has 
that improved things or not? And if not, why not?
    Mr. Winter. Questionable. There is the left-hand turn, the 
many issues that have come up, which includes the Dakota 
Prairie Grasslands. These issues have all come about since the 
grassland supervisor got appointed here. So there has been many 
contentious issues in the past 6, 7 years.
    How is it going to play out? With your help hopefully we 
can direct the results. But no, it is not. It seems like we're 
more in contentions. Is that right, Randy?
    Mr. Mosser. Yes.
    Mr. Winter. We've got more contentious issues than we had 
before the Bismarck office came in play.
    Senator Dorgan. I'm going to call on Congressman Pomeroy 
for a couple of questions to complete this.
    I want to mention again, Conrad Burns who is the chairman 
and I am the ranking democrat of the subcommittee. Conrad 
Burns, Senator Burns, feels very strongly about the Forest 
Service practices as well.
    He and I have had a discussion by telephone last week about 
this entire area, and he is, I think, as prepared as I am to 
take action that's necessary to make sure the result here is a 
fair result and the right result.
    I also want to mention, again, that Senator Conrad I know 
met with you, and in fact, we were in Medora the same day when 
we met with a number of groups and Congressman Pomeroy has.
    I also wanted to say that Bruce Evans, who is here on 
behalf of--Bruce is right over here--on behalf of Conrad Burns 
and Peter Kiefhaber and Rachael Taylor, all of whom work on the 
subcommittee, this Appropriations subcommittee has jurisdiction 
over funding for the Forest Service. These three are experts in 
this area and will be very instrumental in helping us determine 
what we do as we proceed to deal with these issues.
    It's also true as Congressman Pomeroy suggested that the 
authorizing committees will have a lot to say. From time to 
time when the authorizing committees don't take action, we 
stick it in an appropriations bill and it causes all kinds of 
anguish, but it's hard to get out of an appropriations bill and 
stick something in. So we're going to have an opportunity to 
address this.
    My first and best hope will be that the Forest Service 
hears loudly and clearly exactly what the problem is, what the 
urgency is to address this and has heard sufficient information 
this morning to understand.
    This is not much ado about nothing. This is a very serious 
and a very important issue that they should take seriously. And 
I would hope their first step would be to decide the process by 
which this handbook was delivered without proper consultation, 
should persuade them, bring it back, start over and do it 
right.
    Whatever policies exist in the handbook when it's done 
right should be policies that are consistent with the needs 
that exist here with respect to Grazing Associations, ranchers, 
multiple use of the lands. But you would get that consistency 
by sitting down and having a discussion and using a good dose 
of common sense.
    When those discussions don't happen, I think these things 
move off in the wrong direction, and that's what we have in 
front of us today.
    Congressman Pomeroy.
    Mr. Pomeroy. Thank you, Senator Dorgan. I want to 
congratulate everyone who spoke. I think to a person you 
articulated perfectly the sense that has been expressed to me 
of how ranchers have reacted to the proposals.
    The great line from the movie Cool Hand Luke, ``What we 
have here is a failure to communicate,'' seems to have some 
implication.
    Ms. Kimbell said that they make every effort to, ``work in 
a collaborative way'' with the ranchers. She said, ``We make 
every effort to engage the public.''
    I'm just wondering if it's your sense, I'd like to ask the 
panel right across whether it's your sense as stakeholders in 
interaction with the Forest Service on these lands, whether 
it's your perception that they work in a collaborative way, 
whether it's your sense that they make every effort to engage 
the public?
    We'll start with you, Joe, and just we'll work right on 
down.
    Mr. Milton. To answer your question, Congressman, which is 
a very good question, I don't believe that they do.
    I think that they have a tendency to bow to the pressures 
from outside that would restrict them in making good judgment. 
And they follow sometimes, like I said, poor judgment in doing 
their decision. They use theory rather than facts, and there's 
several instances where this has been the case.
    Mr. Winter. I think there's a lot of direction that comes 
down from the top on the Forest Service, and that's where the 
collaboration and the consultation is not there.
    On a local level there are some very fine Forest Service 
people that we work with very well on the issues, and it sort 
of depends a little bit on which local people you have in 
charge at that particular time.
    At the particular time in our association we have very good 
cooperation with the ranger people, but the idea the National 
Forest policies should be implemented on the grasslands is like 
trying to drive a square peg in a round hole. And that's where 
the rub comes.
    Mr. Mosser. Well, I think basically what a lot of it comes 
down to, I think we have a lack of trust. They don't seem to 
coordinate with us what they're planning to do or how they're 
going to do it. And I know some of our local range cons and 
that show the same frustration, too.
    But no, there isn't the cooperation consultation.
    Mr. Anderson. I don't think that there is either, but I 
think it's--they've kind of admitted that they have a 
communication problem within their organization, and then that 
filters down through us and we get one side--somebody says one 
thing and the next guy says the other thing.
    So it's communication and goes back to what Randy said; 
then there's trust issues. A lot of it is communication.
    Mr. Huseth. I'd have to strongly agree with the statement 
that Keith made. On a local level there's a lot of range cons 
and people on local levels that really seem to understand where 
we're coming from and the goals that we have, and that makes it 
a lot easier, like I said in my statement, that both sides have 
to compromise.
    It makes it a lot easier for them to compromise with us 
knowing what we want and what we need, and that allows us to 
compromise and understand where they're coming from as well.
    But like the other guys stated, when you're working on so 
many levels, the waterfall effect, from one stage to the next, 
there's too much miscommunication in between those levels. So I 
think it comes from the higher up down to the local.
    Mr. Pomeroy. I think your statements are very well made. I 
have a hunch that those of the grass roots level interacting so 
closely have the best understanding of what you're dealing 
with. And you know, sometimes notions break down a little bit 
when you actually confront them with reality.
    So these notions that they have in Washington don't 
actually work out here in the ground. They don't even want to 
hear it. They just want to do it. So they cut out the range 
cons from the process. Sir, go ahead.
    Audience Member. Just a quick comment.
    Mr. Pomeroy. If you'd identify yourself, please.
    Audience Member. I'm sorry. Gary Tesher. I live out by 
Squaw Gap, McKenzie County Grazing Association.
    To reiterate what you people have said, and I think what 
you people have implied is my major concern with our situation 
now, is I think we're being bullied by the Forest Service.
    I think we're a very important cog in this equation, and I 
think, like these people have said, it's the range cons and 
that, some of those are pretty good to work with. But further 
up people, I think we're more of an irritation than anything, 
and I don't think that's right.
    I've seen the change--I've only been ranching 30 years, but 
I've seen quite a change in them years that we were pretty high 
on the totem pole then, but it's just getting lower all the 
time.
    I would certainly like to see a change in attitude. My 
guess is it probably started to take place a couple hours ago. 
Thanks.
    Mr. Pomeroy. Thank you, Mr. Tesher. I would just conclude, 
final comment. I think that this has been a very serious agency 
mistake. I don't think I've ever seen one quite like it, and it 
couldn't have come in my view at a worse time because the 
scientific review team has completed their work relative to the 
discussions we'll be having upcoming on the Range Management 
Plan, Grasslands Management Plan.
    We've got a lot of very heavy lifting in front of us. So to 
have these interim directives shoved down our throat like was 
attempted absolutely blowing up trust and devastating whatever 
confidence there might be in us getting to some kind of working 
relationship, and I'm not just speaking about my constituents 
here. I'm speaking about me and representing North Dakota in 
the House.
    I believe that it's going to take a long time for me to get 
over how this has been handled, and we're not nearly through 
working our way through the various points of controversy these 
directives have advanced anyway.
    So to me, if strategically the agency wanted to look at 
what's the worst thing we can do before we have to sit down and 
work this management plan over, this interim directive would 
have been just the perfect solution, and we'll all have to work 
extra hard to, I think, change course and get things back on a 
more constructive path.
    Senator Dorgan, again, thank you very much for allowing me 
to participate in this hearing.
    Senator Dorgan. Congressman Pomeroy, thank you for your 
work and thank you for being here.
    You know, there have been times when we have disagreed, the 
grazing associations and myself. I mean, I've been willing when 
you've come at me with certain things, if I think your wrong, 
I've said it; I think you're wrong about this.
    But you're not wrong about this. You're right about this, 
and this is something of significant consequence. This is a big 
deal, and could have a significant imprint on what kind of 
future we have in and around areas of the grasslands.
    Are we going to have families living out there under yard 
lights trying to run a farm on a ranch or are we not?
    So the reason we called this hearing is this is an issue of 
great consequence and it needs to be addressed. This is not 
something that can't be repaired.
    It can be repaired. It can be fixed. And my hope is the 
Chief of the Forest Service, Regional Forester and others will 
understand that this must be fixed. And the way to move forward 
is through consultation and working together. We have a common 
interest here.
    Let me just finally say that while this has all has been 
very serious, I want to tell you about a rancher that I've told 
people about for years and years.
    I grew up in western North Dakota and I got a call when I 
was in the U.S. House many, many years ago from a rancher who--
and ranchers are plain spoken. They tell you exactly what's on 
their mind, and they use as few of words as possible.
    He called me and he was furious. I forget what the issue 
was. It's been many years now. And he was so upset. He 
concluded his harangue at me by saying, ``Byron, you either fix 
this or, by God, I'm going to fix you!''
    I said to him, ``Are you trying to threaten me?''
    He said, ``Hell, yes! I thought I made that clear.''
    I knew it wasn't physical. It was just he just wanted to 
give me a long--but you know, the fact is, you know, people are 
pretty plain spoken about things that get under their skin. 
This is one of those circumstances where we can't ignore this. 
This is an issue that should not and cannot be ignored because 
it will have great consequence for our state and for families 
who work and live in our state.
    So let me thank all of you who have driven some ways to be 
here. The Bismarck location was just the most opportune 
location to do this as early as was possible. It also allowed 
some folks from Sheyenne to get over here more easily.
    But I know many of you have driven a long, long ways coming 
in from Belfield this morning and Watford City and north of 
Williston and so on. Thank you for doing that.
    Mr. Winter. We'd also like to thank you for having this 
hearing and coming from Washington, DC.
    Senator Dorgan. Well, we will continue to work on this, and 
I will look to hearing a response from the Chief of the Forest 
Service a week from Friday.
    In the mean time, we have--if you've signed in, we have 
your sign-in name and we'll keep in touch with you about all 
that we have learned.

                         CONCLUSION OF HEARING

    Thank you all very much for being here. That concludes our 
hearing.
    [Whereupon, at 12:55 p.m., Tuesday, August 30, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
